<html>
<title> - BRAC IN NORTHERN VIRGINIA: BASE REALIGNMENT AND CALAMITY? A REVIEW OF BRAC'S IMPACT ON TRAFFIC CONGESTION AND QUALITY OF LIFE IN OUR REGION</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
 BRAC IN NORTHERN VIRGINIA: BASE REALIGNMENT AND CALAMITY? A REVIEW OF 
 BRAC'S IMPACT ON TRAFFIC CONGESTION AND QUALITY OF LIFE IN OUR REGION

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                            AUGUST 31, 2006

                               __________

                           Serial No. 109-181

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
29-934                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
BRIAN P. BILBRAY, California

                      David Marin, Staff Director
                Lawrence Halloran, Deputy Staff Director
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 31, 2006..................................     1
Statement of:
    Kaine, Tim, Governor, Commonwealth of Virginia...............     9
    O'Brien, Senator Jay, Commonwealth of Virginia; Keith E. 
      Eastin, Assistant Secretary of the Army for Installations 
      and Environment, accompanied by, Colonel Brian Lauritzen, 
      Garrison Commander, Fort Belvoir, and Jim Curran, traffic 
      consultant, Fort Belvoir Project; Jeff Shane, Under 
      Secretary of Transportation for Policy, U.S. Department of 
      Transportation; David B. Albo, Delegate of the 42nd 
      District of Virginia, Virginia House of Delegates; Gerald 
      W. Hyland, Mount Vernon District supervisor, Fairfax County 
      board of Supervisors; Dana Kaufman, Lee District 
      supervisor, Fairfax County Board of Supervisors; Dean 
      Tistadt, chief operating officer and assistant 
      superintendent for facilities and transportation, Fairfax 
      County Public Schools; Kevin D. Kirk, president, west 
      Springfield Civic Association; Vivian Watts, Virginia House 
      of Delegates; and Senator Toddy Puller, Mount Vernon/Lee 
      District...................................................    24
        Albo, David B............................................    40
        Eastin, Keith E..........................................    25
        Hyland, Gerald W.........................................    48
        Kaufman, Dana............................................    53
        Kirk, Kevin D............................................    65
        O'Brien, Senator Jay.....................................    24
        Puller, Toddy............................................    72
        Shane, Jeff..............................................    33
        Tistadt, Dean............................................    62
        Watts, Vivian............................................    68
Letters, statements, etc., submitted for the record by:
    Albo, David B., Delegate of the 42nd District of Virginia, 
      Virginia House of Delegates, prepared statement of.........    42
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     4
    Eastin, Keith E., Assistant Secretary of the Army for 
      Installations and Environment, prepared statement of.......    27
    Hyland, Gerald W., Mount Vernon District supervisor, Fairfax 
      County board of Supervisors, prepared statement of.........    50
    Kaine, Tim, Governor, Commonwealth of Virginia, prepared 
      statement of...............................................    13
    Kaufman, Dana, Lee District supervisor, Fairfax County Board 
      of Supervisors, prepared statement of......................    55
    Kirk, Kevin D., president, west Springfield Civic 
      Association, prepared statement of.........................    67
    Puller, Toddy, Mount Vernon/Lee District, prepared statement 
      of Mr. Sickles.............................................    73
    Shane, Jeff, Under Secretary of Transportation for Policy, 
      U.S. Department of Transportation, prepared statement of...    35
    Tistadt, Dean, chief operating officer and assistant 
      superintendent for facilities and transportation, Fairfax 
      County Public Schools, prepared statement of Mr. Dale......    63
    Watts, Vivian, Virginia House of Delegates, prepared 
      statement of...............................................    70


 BRAC IN NORTHERN VIRGINIA: BASE REALIGNMENT AND CALAMITY? A REVIEW OF 
 BRAC'S IMPACT ON TRAFFIC CONGESTION AND QUALITY OF LIFE IN OUR REGION

                              ----------                              


                       THURSDAY, AUGUST 31, 2006

                          House of Representatives,
                            Committee on Government Reform,
                                                   Springfield, VA.
    The committee met, pursuant to notice, at 10:06 a.m., at 
Rolling Valley Elementary School, 6703 Barnack Drive, 
Springfield, VA, Hon. Tom Davis (chairman of the committee) 
presiding.
    Also present: Representative Moran.
    Staff present: David Marin, staff director; Larry Halloran, 
deputy staff director; Ed Puccerella, Christopher Bright, and 
Chris Lopez, professional staff members; Teresa Austin, chief 
clerk; Michael Galindo, deputy clerk; Ali Ahmad, staff 
assistant; Michael Sazonov, research assistant; Bill Womack, 
legislative director; and Kim Trinca, minority staff.
    Chairman Tom Davis. If everyone could take their seats, the 
hearing will come to order. I want to thank everybody for 
joining us today to examine the Army's plans for implementation 
of the recommendations of the BRAC Commission and how they will 
affect northern Virginia, the metropolitan D.C. area, and the 
Army's ability to accomplish its mission.
    Since 1988 the BRAC Commission and the BRAC process has 
served as the mechanism to realign military installations to 
match the challenges of an evolving world. The four previous 
BRAC rounds in 1988, 1991, 1993 and 1995 brought about 97 major 
closures, 55 major realignments and 235 minor actions. Overall, 
DOD claims that the previous BRAC rounds saved the American 
taxpayers around $18 billion through fiscal 2001 and a further 
$7 billion per year since. However, the 2005 BRAC 
recommendations represent the most extensive BRAC ever 
proposed, affecting more than 800 installations. DOD claims 
BRAC 2005 will cut excess military infrastructure between 5 and 
11 percent and save $48.8 billion over 20 years.
    As part of the 2005 process, the Department of Defense made 
numerous recommendations to the BRAC Commission regarding 
activities in the metropolitan D.C. area. Many of these could 
be characterized as part of a concerted effort to move DOD 
functions from leased office space to military posts. The main 
rationale was that leased space did not meet the Army's rigid 
force protection standards.
    Along with my colleague Jim Moran who joins me here today, 
as well as Senators Warner and Allen, we all argued vigorously 
against the Army's recommendations. We voted to disapprove the 
mission's final recommendations. I felt that the Department of 
Defense was using the BRAC process as a vehicle to advance an 
unrelated policy goal, mainly moving out of leased space. I 
also felt that the entire BRAC process looked at these issues 
solely from a DOD perspective. There was little coordination 
with other agencies regarding the impact of these moves.
    For northern Virginia, the final result of the 2005 BRAC 
round was that 23,000 personnel, a force the size of the 
Pentagon, will be relocating to Fort Belvoir by 2011. In the 
BRAC game, the conventional wisdom has always been that those 
who saved or gained jobs won, and those who lost jobs lost. The 
jobs coming to Fort Belvoir are very desirable, highly skilled, 
high paying jobs with considerable economic spin-off, but that 
will be little consolation if the tradeoff for these jobs is 
chaos on our roadways. Unfortunately I think that's where we're 
headed. Yesterday's Washington Post reported that the 
Washington, DC, region already has the second longest average 
commute in the Nation. Without proper planning and execution, 
the influx of traffic to Fort Belvoir could lead to the 
collapse of the transportation infrastructure along the I-95 
corridor, making the situation even worse.
    In February the Army awarded a $60 million contract for 
master planning services at Fort Belvoir to handle BRAC-related 
issues. As part of this process the Army also formed a board of 
advisers comprised of Federal, State and local stakeholders to 
discuss issues and concerns regarding BRAC implementation at 
Fort Belvoir. On July 28th the Army announced its initial plan 
to site military activities in the fort.
    This plan involves locating 18,000 personnel on the 
Engineer Proving Grounds, a former live-fire range located on 
the western side of I-95. The remainder will be located on the 
main post located off Route 1.
    The Army also announced its intention to locate the 
National Army Museum on the western portion of the Engineer 
Proving Ground. The museum had been planned for the main post. 
I would note that the museum is not part of the BRAC process.
    Finally, the Army intends to build a new hospital to 
replace the aging DeWitt Hospital on the main post, which 
hospital will also host some of the services formerly provided 
at Walter Reed Army Medical Center.
    The Army's plans raise a number of concerns, foremost among 
them the effects they are going to have on regional traffic. 
How does the Army propose to handle an estimated 15,000 extra 
car trips per day? The Army's answer is a number of 
transportation projects, 14 of which they characterize as 
required. These include the completion of the Fairfax County 
Parkway, widening of I-95 and new access ramps to EPG. However, 
only three of these projects, the completion of the Fairfax 
County Parkway, widening of I-95 between Fairfax County Parkway 
and Route 123 and the Woodlawn road replacement are even 
partially funded.
    The completion of the Fairfax County Parkway was once 
considered to be fully funded. However that's now doubtful 
since the dispute regarding environment concerns has delayed 
construction for years. So the question is, who's going to pay 
for these projects? Only two are in Virginia's 6-year plan. 
Only two are included in the most recent Federal transportation 
reauthorization bill, the next version of which won't be 
enacted until 2010 at the earliest.
    Unless the Army plans to spend the money to fund these 
projects, which it estimates to cost about $626 million, it's 
foreseeable that little if any new transportation 
infrastructure will be in place before 23,000 new people report 
to Fort Belvoir.
    Not to add insult to injury, but this figure does not 
account for the private sector that's likely to also move to 
the area along with the agencies they serve, and clearly that's 
just not an acceptable situation. The Department of Defense got 
what it asked for from the BRAC Commission. Now it has to 
figure out how to put those pieces in place in only 5 years. 
Those with experience with large projects will tell you that's 
very little time. The concern is that the short-term imperative 
of the deadline is outweighing long-term considerations. It 
could be likened to 2-minute drills in a football game when 
caution is thrown to the wind in the desperation hope of 
beating the clock.
    A case in point: The Federal Government currently owns a 
General Services Administration warehouse facility in 
Springfield just north of the EPG and adjacent to Interstate 95 
and the Springfield Metro and VRE stations. It strikes me that 
this property should be used as something other than warehouse 
space next to a major transportation center. However, time 
constraints have led the Army to take the option off the table 
without giving it the consideration it merits.
    I can certainly think of possibilities for the GSA site. As 
the chairman of the Government Reform Committee, I have 
jurisdiction over GSA and I intend to make sure these options 
are explored. If it makes sense, we're going to followup on 
them.
    In closing, I called this hearing to highlight what I 
believe is an unrealistic timeline and a flawed planning 
process. It's my hope that doing so will provide the 
justification for legislation that will allow the process to 
move along in a rational manner.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T9934.001
    
    [GRAPHIC] [TIFF OMITTED] T9934.002
    
    [GRAPHIC] [TIFF OMITTED] T9934.003
    
    Chairman Tom Davis. Mr. Moran.
    Mr. Moran. Thank you very much.
    Chairman Tom Davis. Let me just--I would ask unanimous 
consent that my colleague Mr. Moran be permitted to sit with 
this hearing.
    Mr. Moran. Thank you, Tom. Tom, thank you very much for 
having this hearing. It is as important as it is urgent. We 
took a tour of this area earlier this morning, and we see what 
a difference a commitment can make with regard to the 
Springfield Mixing Bowl. That's working. But it's not going to 
work if the people driving through it have to spend half an 
hour on the road before they get to it. All of this 
transportation situation is interrelated.
    Now we're going to hear from Governor Kaine. I very much 
appreciate your being here, Governor. You've spent a great deal 
of time in northern Virginia, and I know that's deliberate 
because you understand that northern Virginia's the economic 
engine that is generating revenue for the rest of the State, is 
leading the rest of the State, and really the country, in terms 
of jobs generated. Northern Virginia is experiencing the 
strongest economic growth in the country. In fact, in the last 
5 years, more jobs have been created in northern Virginia than 
anywhere in the country. That's terrific. But it also places an 
enormous responsibility on us to maintain that momentum. The 
economic health of the State is at stake and, really, 
nationally as well.
    We just saw an article as a result of the Census Bureau 
yesterday that showed that Loudon is the fastest growing and 
most affluent, Fairfax County is the third most affluent. But 
that will not continue to be the case unless we make the kinds 
of decisions that must be made now.
    And, Governor, I say this with total conviction: that your 
transportation plan, if it is not funded, that will be the 
death knell of this economy in the long run. We cannot continue 
to grow at the rate that we've been growing--anywhere near the 
rate that we've been growing--if we continue to have the worst 
transportation congestion in the country. And the commitment 
that you have made to put a billion dollars a year into fixing 
this transportation situation is absolutely essential. And 
there's no way--and I know that Tom agrees, and Frank Wolf and 
our Senators agree--that there's very little that the Federal 
Government is going to be able to do unless the State does its 
share as well.
    So we're anxious to hear from you, but this immediate 
situation is born of a judgment that was wrong. Tom referenced 
the vote that we took on BRAC, and we should also credit 
Senator Warner as well, who did a tremendous job laying out why 
the decisions to move people out of leased space were not 
consistent with the authorizing legislation. But we lost that 
vote. So now we have to deal with the ramifications of moving 
20,000 people out of Arlington County. Arlington County will 
survive. Had those people moved out of this area, though, this 
economy would have taken a major hit.
    Now the reality is that 20,000 people are going to move 
into Fort Belvoir, and in fact if you add in the contractors, 
it's going to be probably 24,000, 25,000 people. As Tom has 
said, this is more people moving into southeast Fairfax County 
than are employed at the entire Pentagon. Imagine that: to move 
the entire Pentagon work force into southeast Fairfax County, 
it's the equivalent of four major military bases. But the 
Pentagon has Metro, it has excellent bus service, it's right on 
395 and Washington Boulevard, so it obviously has figured out 
how to accommodate that traffic. The reason we're having this 
hearing today is that we are not prepared at all to accommodate 
the traffic that this move of more than 20,000 people will 
require. That's why we're here.
    Now, the average commuter in northern Virginia loses 72 
hours each year to congestion. If we don't fix this, that 
figure is going to be in the triple digits. It will be over 100 
hours a year on average. This scenario is going to be a 
disaster for employees, for commuters, and in fact for everyone 
that lives and works in this area because we're not just 
talking about those 20-plus thousand people in southeast 
Fairfax, we're talking about all the people that are traveling 
north on 95 or Route 1. All of them will be impacted by this if 
we don't do the right thing.
    Now, it's a good thing that the Army has decided to split 
up some of these projects but, as Tom said, they've missed the 
boat in a number of areas. For example, the GSA warehouse. That 
is so much closer to public transportation, it's Federal land, 
we need to use that location. We need to use that property as 
part of this solution. The Army has identified 14 projects that 
are required to make this work, 14 required projects. We agree. 
Gerry Hyland, Dana Kauffman, our State delegates all agree 
these are required to make this work. They estimate that it 
will cost $626 million, and yet only 3 of those 14 required 
projects have any identified funding source.
    Now, it stands, Virginia's 6-year plan has been cut by 
almost $800 million, $795 million. Without additional revenues, 
the State funding will be limited to road maintenance and 
matching Federal money beginning in 2010. That's grossly 
inadequate. It doesn't include meeting any of these needs.
    Now, the Fairfax County Parkway certainly needs to be 
completed. There is some money for that, but it certainly is 
inadequate. So we're going to try to find answers to the 
questions as to what the Army is prepared--willing to pay for, 
what kind of legislation is going to be required by the 
Congress to enable the Army to meet its funding 
responsibilities, what is the timetable for moving people, 
because we've had many discussions on this, and both Tom and I 
agree, you've got to have the infrastructure in place before 
you move 20,000 people into this area. So that timetable needs 
to match the funding timetable.
    We'll talk a bit about the U.S. Army Museum when we hear 
from the Army. We will try to refine some of these cost 
estimates, but this hearing is really the kickoff of a campaign 
that can't stop until we find the funding and we find the 
solutions and we're able to--that will enable us to accommodate 
more than 20,000 people into southeast Fairfax. So it's going 
to be the best of worlds if we can do it. It will be the worst 
of worlds if we cannot.
    And, Tom, again let me conclude by where I started. I thank 
you for holding this hearing as Chairman of the Government 
Reform Committee. You have the authorization to hold a formal 
hearing. This is such a hearing and it is just the kind of 
hearing we need. So thank you again. And Governor Kaine, thank 
you for your leadership.
    Chairman Tom Davis. Jim, thank you. And I know as a member 
of the Appropriations Subcommittee on Defense, on Armed 
Services, you will be playing a key role in this as it goes 
through. So we are happy to have you here.
    We are just very pleased to have the Governor of the 
Commonwealth of Virginia here today. Governor Kaine, you have 
proposed a lot for transportation. I want you to know I have 
personally spoken to my State Senator in support of your 
transportation plan, and we appreciate all of your initiatives 
in this and so many other things, and it's been a pleasure to 
work with you during your tenure as Governor. The partisanship 
and bickering aside, I think we've had a great working 
relationship. We're going to work together on this as well as 
so many other issues. So thank you very much for being here. 
It's our policy to swear witnesses in.
    [Witness sworn.]
    Chairman Tom Davis. Thank you very much. Once again, thank 
you for your leadership.

   STATEMENT OF TIM KAINE, GOVERNOR, COMMONWEALTH OF VIRGINIA

    Governor Kaine. Thank you very much, Mr. Chairman, for the 
invitation. Congressman Moran, ladies and gentlemen, good 
morning. I begin by thanking you again for this hearing on a 
matter that is just critical to northern Virginia and the 
entire Commonwealth. The three of us have all spent time in 
local government. We started our public service careers there, 
and we know as former local government officials the critical 
balance that has to be struck between land use decisions and 
the transportation planning and infrastructure. You've carried 
that local experience, both of you, to Washington and are key 
leaders in transportation efforts.
    And, Congressman Davis, I just want to mention that your 
focus this year on the potential for Federal matching funds for 
expansion of Metro and Metrobus is something that I mentioned 
to the legislature just 2 or 3 days ago as something that we 
need to focus on.
    But we're here today to talk about a different partnership, 
and that's what has been a long and productive partnership 
between the Commonwealth of Virginia and the U.S. military, a 
partnership that is historic and important, and we want to make 
sure it continues to go forward in a positive way. And 
specifically, we're talking about the jobs that will come to 
Fort Belvoir, the Engineer Proving Grounds. And also I'll say a 
little bit about the growth of Quantico, which does factor into 
this discussion today.
    We are pleased with any decision to bring great jobs, you 
know, to Virginia. And so the decision to relocate the National 
Geospatial Intelligence Agency, in particular, high-quality 
technology jobs to Virginia, what a natural thing, because 
we're a great community for these kinds of jobs. The idea of 
the Army History Museum, the new hospital, other DOD 
consolidations at Belvoir and Quantico, these present some 
wonderful opportunities. But the situation, though, as you 
pointed out in your comments is really a microcosm for the 
biggest challenge that faces our economy today as a 
Commonwealth. We have this exciting opportunity. We welcome 
high-quality jobs, but can we successfully accommodate these 
additional workers? This is not just an issue about northern 
Virginia. It's an issue about the entire Commonwealth because 
the entire Commonwealth for the last decade to a large degree 
has been yoked to the success of this most dynamic economy in 
the State. And if we get it right here, everyone in Virginia 
benefits. If we get it wrong here, it's tough for those in 
northern Virginia, it's tough for those everywhere all across 
the Commonwealth.
    The future growth of Fort Belvoir, the Proving Ground in 
Quantico, represents a major land use decision by the Federal 
Government, with extraordinary ramifications. In just 5 years, 
the effect of these BRAC actions, as you indicated, will be the 
equivalent of putting a Pentagon on this site or moving the 
entire population of the town of Herndon to this site, and that 
is demonstration of the significance of it. The impact will be 
substantial, and it's an unplanned change to the quality of 
life and existing transportation system of every northern 
Virginian touched by I-95 from the Beltway all the way to 
Fredericksburg.
    Even the Army's own analysis shows, given current funding 
levels, that we can't meet the shared responsibility to ensure 
that the commuter can get between home and work in a safe 
manner. Our internal analysis indicates the effects of the 
relocation could extend along I-95 from Belvoir to well south 
of Quantico where the addition of 3,000 employees there will 
add to the existing challenge that we're talking about today.
    Our existing highways are overwhelmed, as you know. Current 
employees at Fort Belvoir who must travel south on I-95 to get 
home at night must contend with stop-and-go conditions that 
last 3 or more hours every evening, and the conditions on Route 
1 are not much better.
    The Commonwealth has only funding to address--to partially 
address the current congestion levels. We have resources right 
now, as you referenced, to widen I-95 to four lanes in each 
direction, significant construction to begin in 2008. However, 
even with this major improvement, the engineers tell us by 2010 
motorists traveling southbound in the evening will have 3 or 
more hours in the evening of stop-and-go traffic, and that 
condition will exist even before we wrestle with this question 
of Fort Belvoir and the EPG.
    Now, much has been said about the need to complete the 
Fairfax County Parkway. We agree, and we have funds committed 
to that. But the funds were committed to expand the parkway 
prior to the assumption that we would be looking at 18,000 more 
people coming to the area. Probably the most challenging piece 
of this--and I would be glad to talk more about it if you would 
like--is to provide transit service to the site. If indeed the 
relocated work force could come from the north and east, the 
Army should consider direct Metrorail extension to the site. If 
the relocated work force comes from the south, consideration of 
VRA bus or hot lane access is incredibly important. Mr. 
Chairman, these are just suggestions, but more hard analysis is 
needed.
    We've received the Army's proposed list of transportation 
projects only recently to fully grasp the extent of the BRAC 
challenges and the decisions we need to make in tandem. To that 
end, what we would request is basically a series of things in 
the spirit of partnership. We would like the Department of 
Defense to take the following steps: First, that the Department 
work with the Commonwealth, the GSA, and the Federal Highway 
Administration and regional planning agencies to define the 
basic transportation assumptions. And particularly, we need to 
know how many private contractors, as you have indicated, will 
cluster around these Federal employees who will move here. We 
will be talking about more than 22,000 jobs in Fort Belvoir and 
3,000 at Quantico.
    Second, the Department of Defense should work with VDOT and 
the FHA and the Federal Transit Administration to define 
appropriate standards and methodologies for impact studies, I-
95, the parkway, Route 1 are all part of the national highway 
system, and these national standards should be applied as 
rigorously here as in any other case. In particular, we need to 
know if it's appropriate to base long-term travel forecasts on 
zip code questionnaires of current employees.
    Third, DOD should work with VDOT, FHA, regional planning 
organizations to develop a comprehensive and rigorous analysis 
of the direct and indirect transportation impacts of the BRAC 
relocations. In both Route 1 and I-95 corridors, the effort 
should include a review of realistic and achievable strategies 
to use through teleworking, flex-time, maximizing transit and 
HOV usage, and incorporating security check impacts in the 
facility and operational planning.
    Next, DOD should work with the relevant agencies, VDOT and 
the FHA, to look at realistic cost estimates for this list of 
project improvements; as it was pointed out, only a few of 
which are contemplated in the current 6-year plan in Virginia 
and not contemplated to the extent that would be required by 
this plan. DOD and the Commonwealth has to work together to 
secure funding for traffic and environmental mitigation 
efforts. And Mr. Chairman, the most important of all, the DOD 
must incorporate these impact studies and the mitigation 
efforts into the environmental documents currently underway for 
both Fort Belvoir and Quantico. That's the only way to achieve 
the balance between transportation and land use that we all 
have worked hard to achieve and want to achieve in this 
instance.
    Failing that, failing the incorporation, Virginia is 
prepared to do what we can to lead the analytic effort, but it 
will not be nearly as successful if we cannot do it in tandem.
    So in closing, Mr. Chairman, we are proud, obviously, not 
only of the strength of our economy and the fact that we can 
attract great jobs, but of our long and successful history 
partnership with the U.S. military. That's a key part of who we 
are as Virginians. We're excited to have more Armed Forces, we 
are excited to have more jobs, and we're dedicated to working 
with our partners to do all that we can to ensure that the 
transition is as smooth as possible.
    This may be--although there have been other transportation 
challenges a lot in the media about particular items--this may 
be the single most challenging, I would say from my perspective 
as Governor, the Fort Belvoir situation and the growth of the 
Port of Hampton Roads, the Port of Virginia, are the two most 
challenging long-term transportation land use problems that we 
have in Virginia right now.
    There is much work to do. I look forward to working in 
tandem with you and doing all we can to partner with DOD to do 
the appropriate planning and then find the financing to make 
this something that doesn't detract from the quality of life in 
northern Virginia.
    [The prepared statement of Governor Kaine follows:]

    [GRAPHIC] [TIFF OMITTED] T9934.004
    
    [GRAPHIC] [TIFF OMITTED] T9934.005
    
    [GRAPHIC] [TIFF OMITTED] T9934.006
    
    [GRAPHIC] [TIFF OMITTED] T9934.007
    
    [GRAPHIC] [TIFF OMITTED] T9934.008
    
    Chairman Tom Davis. Thank you.
    Governor, let me ask, I think your concern is one that both 
Congressman Moran and I raised as well; that is just getting 
our arms around the scope of the problem. We don't really know 
where the people that will be moving into the area are going to 
live.
    Governor Kaine. Right.
    Chairman Tom Davis. It's great to do zip codes of current 
employees, but a lot of these people will be new to the 
Commonwealth. Hard to get a grip around that. Also in Crystal 
City, although it will be vacated from DOD space, other 
businesses are going to move in there. So a lot of the traffic 
that's currently going to Crystal City will be going there for 
other jobs, wouldn't you imagine?
    Governor Kaine. Absolutely, Mr. Chair. The two planning 
assumptions that we just immediately kind of questioned, that 
we really need to drill down on are--the first one, you are 
right. Where are the people going to live and travel from? The 
Army's assumption suggests that 60 percent or more will be 
traveling north to south to come to Fort Belvoir. That is at 
odds with some of the experience that we have right now. If it 
was north to south in the morning, it will be slightly a bit of 
a reverse commute, but we think from the expansion all the way 
down to Fredericksburg, it may be the reverse, compounding the 
northbound traffic problems every morning.
    And the second assumption that right away we need to get a 
handle on is, how many contractors will come? This Geospatial 
Intelligence Agency is one powerhouse enterprise in terms of 
attracting private commercial development and contractors. And 
so we have to do the hard work to figure out what are the 
numbers we're actually dealing with.
    Chairman Tom Davis. I would just guess that the people 
moving into the area are more likely to locate south, where 
land is cheaper, where they can get more acreage for fewer 
dollars and the like. So we need to get a handle around that if 
we want to do proper planning.
    You've seen the Army's list of required transportation 
projects. Does the Commonwealth agree with that or is there any 
supplement or any additions you would want to make? And you've 
seen the Army's cost estimates. Does the State lead any of its 
own cost estimates?
    Governor Kaine. Mr. Chair, we don't either have our own 
list or our own cost estimates yet because the list was only 
shared with us recently. I think the list looks to be an 
appropriate list. We didn't look at that list and say gosh, you 
know, they're clearly omitting something. But it's a sizable 
list, about 14 projects, as you mention, only two or three of 
which would be in the 6-year plan right now, and some funded at 
a much more minimal level. And so it is a sizable list. We want 
to work with the Army to understand some of their assumptions 
and see if it should be changed. This are they coming from the 
north or from the south could well change the projects that are 
necessary and we would want to work with them on the cost 
estimates as well.
    Chairman Tom Davis. The keystone of the Army's plan seems 
to be the intersection of I-95 and the Fairfax County Parkway, 
but no matter where you work on Belvoir or which direction you 
come from, you probably have to use this interchange. I think 
that's the assumption. Does VDOT think this is a viable plan to 
rely so heavily on one interchange?
    Governor Kaine. No. The current design of that interchange 
is not adequate for 18,000 new jobs. And so if we're going to 
make the transportation infrastructure adequate, it's going to 
be significant upgrades over the plan of that interchange. It's 
going to be some significant discussion about transit.
    You mention the GSA warehouse, Franconia/Springfield, 
there's got to be some significant discussion about transit. 
The Fairfax County Parkway current program for us has to be 
built to a very different level to accommodate it, and then 
there is going to be a whole series of other internal 
improvements, but the interchange in and of itself will not 
handle the 18,000 employees scheduled to come to the EPG.
    Chairman Tom Davis. And my final question, I have to ask 
this. The project that is the most funded of all these right 
now is, of course, completion of the Fairfax County Parkway. At 
one time it was fully funded, but with the delays and with the 
upgrades the road may need now, this may have some deficits in 
its funding as well. But there have been environmental 
problems, as you know, everybody's afraid to take the leap and 
build the road and take it over. We've put language in both the 
House and the Senate defense authorization bills trying to 
allow the Army to manage it and build it and turn it over. But 
how is that coming from your perspective?
    Governor Kaine. Well, first, you were charitable when you 
said that maybe we would have to revisit whether we funded it 
on our side. It is not funded to the level it needs to be, the 
funding the State put in and so many State legislators here who 
have worked on this based on a particular assumption about the 
amount of traffic that with the addition of this 18,000 will 
change very dramatically. So there will be more funding. The 
staffs have talked about this environmental issue, and I think 
we've actually had some positive discussions about, you know, 
if we could find the funding, the way to manage a project to 
get around some of the environmental concerns. We're not at the 
end of that discussion, but I would say that the discussion has 
been a cooperative one. But certainly, you know, as we expand 
the scope of that project, some of the environmental issues get 
more significant.
    Chairman Tom Davis. Well, the delay is not only money at 
this point. This road has to be completed. It's got to be an A-
1 order by opening day or nobody's going to be able to use the 
site.
    Governor Kaine. Absolutely.
    Chairman Tom Davis. I appreciate your willingness to 
continue your work on it.
    Mr. Moran.
    Mr. Moran. Thank you, Mr. Chairman.
    Tim, Governor, you began your testimony by pointing out the 
fact that all three of us started out in local government, Tom 
on the Fairfax County Board, chairing the board for several 
years. I was mayor of Alexandria. You were mayor of Richmond. 
And so you are very much aware that while we generally focus on 
the macroperspective, what really matters is the 
microperspective. It's that family who is working hard every 
day just to meet the mortgage, to plan their daily commute, to 
get their kids to school or daycare or whatever, and to try to 
maintain a standard of living that they've dreamed of for their 
family. And it is that quality of life which is really what 
we're talking about here.
    All these numbers and grand plans, it really comes down to 
how does it impact the average family that lives in this area 
or south of 95? I know it's a little bit of--you know, it's a 
different kind of question to ask you. But I know that's your 
perspective as well. So would you elaborate a little bit on how 
you feel these issues are going to impact that average family 
in northern Virginia?
    Governor Kaine. Certainly. Well, you know you hate it when 
people from Richmond say they understand what you're going 
through, because we really don't. But for 5 years, 1 year when 
I was running for Lieutenant Governor, and then 4 years as 
Lieutenant Governor, I spent a third of my time in northern 
Virginia. And now when the legislature is not in session, which 
actually isn't very much time these days, I spend about a third 
of my time in northern Virginia. And so I've done that south-
to-north trip that thousands and thousands of Virginians do 
every day, and seen it get worse and worse and worse over the 
last 5 years. And I can kind of in my mind's eye say, OK, 
22,000 more; add contractors, maybe it's 26,000, 27,000. Some 
come from the north, so maybe it's 15,000 or 18,000 more in 
rush hour. It is not a pretty picture.
    The circumstances that folks in this region live with in 
fighting through traffic is grim. It's grim in terms of the 
amount of time, but the other thing that I never fully 
appreciated until recently, it's grim in the unreliability of 
it.
    So people, you know, change their assumptions. This is 
going to be rush hour so I will try to do this errand on a 
Sunday afternoon or, you know, I'll try to go to work an hour 
earlier or an hour later. And so people change their behavior 
and then they find it's just as crowded. So that stop-and-go 
traffic time isn't an hour in the afternoon. It's 2 hours and 
it's 3, and we are robbing--we are robbing people of time with 
family, and we are robbing businesses of productivity.
    I was talking to somebody here in the northern Virginia 
area recently who has a business that relies on crews going out 
to do cable TV installations at folks' homes. And it used to be 
that they could schedule, you know, 10 trips a day for a crew 
and now it's 5 or 6 trips a day.
    So at every level, what we are seeing is, you know, we're 
victims of our success. We are a great place to live, but we 
have to have the planning decisions made and then the 
infrastructure funding to keep up with this, or people are 
going to be confined to less and less of a high-quality life. 
And this is our opportunity now to try to get this right.
    Mr. Moran. Thank you, Governor. Just one more, form of a 
comment really, but it will end with a question.
    We just looked at the Springfield Mixing Bowl and we 
congratulate the Virginia Department of Transportation. It was 
on time, and at least it was on budget in terms of the most 
updated budget, but we got it done. You know, Tom remarked to 
me that this was 94 percent Federal money. The Wilson bridge, 
$2.5 billion Federal initiative. The State has done its share 
on both projects, and that's why they got done.
    But as my colleagues, Tom and Frank and our Senator Warner 
said this many times--it is going to be very difficult, 
whatever party's in power, whatever happens after this November 
in terms of the House of Representatives, whatever happens 
after 2008 in terms of the President, both Republicans and 
Democrats are first going to look to us when we look for 
Federal money and say, you know, your economy--and all of them 
are going to be able to say this--your economy is so much 
stronger than my economy. Why should you be getting the lion's 
share of Federal money, whether it's for public transit or even 
for the infrastructure necessary to bring in 20,000 jobs, which 
they would do anything to get 20,000 new jobs into their 
district, and likewise with rail to Dulles through Tyson's. 
Going to be very difficult.
    And so we have to be able to say, the State and the 
locality is doing its share, as much or more than your State or 
locality would be willing or able to do. And without that State 
commitment, that commandant State commitment, I don't see how 
we're going to address these issues. We will try to do 
everything we can, and if Tom disagrees, he'll say so but----
    Chairman Tom Davis. Well, Jim, if you'd just yield on that, 
and then the Governor can respond.
    As you know, we've been able to bring it home here. Woodrow 
Wilson Bridge, the Mixing Bowl, rail to Dulles; and in the 
latest $1.5 billion for Metro that we moved through the House, 
this was targeted by a number of anti-tax groups, the club for 
growth as being large--people are looking at northern Virginia 
as kind of being pigs on this. Getting additional money's 
tough, but one of the things that was cited by some of these 
groups going after our appropriation for Metro was the fact 
that the State wasn't stepping up and, well, the State doesn't 
want this to do this and the like. And of course, Governor, you 
have to be such a leader in this. It's been tough. That's why 
it's imperative we pass a State package down there. It is going 
to be hard for us to get money out of Washington without that 
cooperation.
    Mr. Moran. Let me amplify on that. Tom, you were able to 
get a dedicated source of revenue for Metro. That was 
essential. We could not have made our argument if we had not 
done that. But that dedicated source of revenue again puts part 
of the burden in your lap, Governor, and that of the 
localities. They've got to come up with the matching money. As 
I say, this was largely the form of a comment but it's a 
comment I would like you to respond to.
    Governor Kaine. Well, you know, my mom and dad taught me to 
not ask people for help if I was not trying to help myself. And 
one of the things that has been a critical part of this 
discussion about transportation is that our Federal delegation, 
both parties, and part of the State, have really gone to bat 
for us in an amazing way.
    Mr. Chairman, you started off talking about--putting 
differences in partisanship aside--you will never hear them say 
anything but positives about our Federal delegation, what they 
have done for us on the transportation side. I have been with 
each of you in the last 2 days, asking you to heavy-lift on 
other projects. I hate to ask for heavy lifting by our Federal 
delegation when I know that we are not doing what we need to do 
as a Commonwealth, and we are not doing what we need to do. And 
it is wrong for us as leaders at the State level to say, boy, 
we hope the Federal Government will do more and maybe, gosh, 
maybe local guys can do more, but we'll maintain a purity and 
maintain or remove from it all. We can't do that.
    Plans that are currently pending, either the plan that I 
put on the table, or the Senate of Virginia has a plan that's 
pending over in the House; if some version or some mixed 
version of those plans were put together, double transit money 
statewide, put money that would be available for Metro match, 
nearly double urban and secondary road construction funds, and 
so I want to do all that I can to challenge--and there are 
other plans that are being discussed that would be very helpful 
in this, and, as you know, we're coming back to the table down 
in Richmond on September 27th to try to find a way so we can do 
what we can do, so I can look you guys in the eye and say we 
are doing what we need to do, and then we can go forward and 
make that partnership continue to work.
    I think we owe it to you because when we ask you to produce 
for us and you do, and then we don't do what we need to do, 
we're just not being the serious leaders that Virginians demand 
that we be.
    Mr. Moran. Well, thank you, Governor. That's the bottom 
line. Tom talks with his State Senator, I put pressure on my 
brother. But it comes down--it's ultimately going to come down 
to your leadership. And I think your statement is the final 
line.
    I don't have any further questions.
    Chairman Tom Davis. Governor, thank you very much. We 
appreciate it.
    We will take a 5-minute recess as we get our next panel up. 
We are going to have Keith Eastin, the Assistant Secretary of 
the Army for Installations and the Environment; Jeff Shane, the 
Under Secretary of Transportation for Policy for the U.S. 
Department of Transportation; David Albo, the Delegate for the 
42nd District; Gerry Hyland, Mount Vernon District supervisor, 
Fairfax County Board of Supervisors; Dana Kauffman, the Lee 
District supervisor, Fairfax County Board of Supervisors; Dean 
Tistadt, the chief operating officer and assistant 
superintendent for facilities and transportation in the Fairfax 
County Public Schools; and Mr. Kevin Kirk, the president of 
West Springfield Civic Association.
    I would also like to ask Senator O'Brien, Delegate Watts, 
Senator Puller I noticed is here, and Delegate Sickles, if 
you'd also like to make a comment, we'd be happy to have that 
on the record and invite you up here, and we'll make room. So 
we'll take about a 5-minute recess.
    [Recess.]
    Chairman Tom Davis. All right. If we could have the 
panelists take their seats and the audience take their seats, 
we'll proceed to the second panel.
    We have a very distinguished second panel as well. We have 
Keith Eastin, again, the Assistant Secretary of the Army for 
Installations and Environment. Keith was kind of a point man 
for the Army on this. We appreciate you being here. Keith, you 
have a couple people with you I think we'd like to swear in as 
well. Who are they, for the record?
    Mr. Eastin. Yes, Mr. Chairman. I have with me Colonel Brian 
Lauritzen who is the Garrison Commander, if you will, the mayor 
of Belvoir. He may be asked to elaborate on some things, if you 
could swear him in. And also Jim Curran who is our traffic 
consultant for the Belvoir project.
    Chairman Tom Davis. We'll swear you in so you can answer 
questions directly, should they come up.
    Again, we have Jeff Shane, the Under Secretary of 
Transportation for Policy for the U.S. Department of 
Transportation.
    We have David Albo, the Delegate from the 42nd District of 
Virginia, the Virginia House of Delegates. David, thank you for 
being with us.
    We have the Honorable Gerry Hyland, a member of the Board 
of Supervisors from the Mount Vernon District, Fairfax County. 
Gerry, thank you for being here.
    Honorable Dana Kauffman. Dana is the Lee District 
supervisor here, and I understand as well your testimony is for 
Chairman Connolly, who I understand is recuperating today and 
has sent you. And, of course, you preside over a good part of 
this area as well.
    My old friend Dean Tistadt, who is the chief operating 
officer and assistant superintendent for facilities and 
transportation for the Fairfax Public Schools. Thank you for 
being with us.
    We have Kevin Kirk, a real citizen, here among everyone 
else; the president of the West Springfield Civic Association, 
which is going to be hugely impacted by this development and 
has taken the lead in the past. Thank you for being with us as 
well.
    We have the Honorable Vivian Watts, a member of the House 
of Delegates, where the EPG sits as well. Vivian, thank you 
very much; a former Secretary of Transportation in the 
Commonwealth of Virginia as well.
    And Senator Toddy Puller from the Mount Vernon Lee area is 
sitting there. Fort Belvoir is in her district. Toddy, thank 
you for being with us.
    And we have Jay O'Brien, a State Senator from the district 
where we're sitting right here as well. Jay, thank you for 
being with us.
    It's our policy we swear everyone in. If you would just 
rise and raise your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you very much. I am going to 
break a little bit, and I know Senator O'Brien has another 
meeting. And, Jay, I will let you lead off, and then I'm going 
to go right back to Keith Eastin. We do have a light in front 
of you that's green when you start. It turns orange after 4 
minutes, red after 5. To the extent we can adhere to that, 
we'll move along crisply. Thank you for being with us.

 STATEMENTS OF SENATOR JAY O'BRIEN, COMMONWEALTH OF VIRGINIA; 
     KEITH E. EASTIN, ASSISTANT SECRETARY OF THE ARMY FOR 
 INSTALLATIONS AND ENVIRONMENT, ACCOMPANIED BY, COLONEL BRIAN 
 LAURITZEN, GARRISON COMMANDER, FORT BELVOIR, AND JIM CURRAN, 
  TRAFFIC CONSULTANT, FORT BELVOIR PROJECT; JEFF SHANE, UNDER 
  SECRETARY OF TRANSPORTATION FOR POLICY, U.S. DEPARTMENT OF 
TRANSPORTATION; DAVID B. ALBO, DELEGATE OF THE 42ND DISTRICT OF 
VIRGINIA, VIRGINIA HOUSE OF DELEGATES; GERALD W. HYLAND, MOUNT 
      VERNON DISTRICT SUPERVISOR, FAIRFAX COUNTY BOARD OF 
  SUPERVISORS; DANA KAUFMAN, LEE DISTRICT SUPERVISOR, FAIRFAX 
  COUNTY BOARD OF SUPERVISORS; DEAN TISTADT, CHIEF OPERATING 
    OFFICER AND ASSISTANT SUPERINTENDENT FOR FACILITIES AND 
 TRANSPORTATION, FAIRFAX COUNTY PUBLIC SCHOOLS; KEVIN D. KIRK, 
 PRESIDENT, WEST SPRINGFIELD CIVIC ASSOCIATION; VIVIAN WATTS, 
 VIRGINIA HOUSE OF DELEGATES; AND SENATOR TODDY PULLER, MOUNT 
                      VERNON/LEE DISTRICT

                STATEMENT OF SENATOR JAY O'BRIEN

    Mr. O'Brien. Thank you very much, Chairman Davis, 
Congressman Moran, it is a pleasure to be before your 
committee. I have three particular interests in this 
discussion. First of all, as a resident of northern Virginia, 
my own commute through Springfield and the Mixing Bowl; second 
as a representative for this area, the concerns that my 
constituents have about their quality of life; and third, as a 
recent military retiree, I just retired as a Reserve colonel in 
March, and plan on continuing my visits to Fort Belvoir for the 
many benefits that they provide to the military community, be 
they Active Duty, dependents, or retirees, such as myself.
    After the first numbers of BRAC came out, we were all very 
surprised by the number, the impact that it would have. Recent 
revisions and polls show that many people who will be moving 
their office to the Fort Belvoir area will not be relocating. 
While that may be positive, I think there will be a significant 
physical impact on new homes, schools, restaurants, 
entertainment, grocery stores and the like.
    Congressman, you mentioned the new hospital, the shift of 
health care and health care services from Walter Reed to Fort 
Belvoir. That impact, I cannot tell you how big that is. The 
number of Army, particularly Army military that currently visit 
Walter Reed will now be visiting Fort Belvoir instead. These 
are not regular work commuters, but people using the services 
of Fort Belvoir. And last, of course, transportation. The 
highest priority to me is the completion of the Fairfax County 
Parkway. I also have the Mixing Bowl here in my district, but 
there are so many other smaller arteries that Senator Puller 
and I and our colleagues from the House of Delegates will be 
concerned about.
    So in conclusion, Mr. Chairman, I want to thank you. I was 
very pleased to hear the comments of our Governor, and I 
support his priorities as well in terms of trying to get a real 
fix from the military in terms of the needs and then also the 
way the General Assembly can respond to assist in those needs. 
So thank you very much. We will, all of us, follow your 
proceedings very, very closely because it is a community of 
support that needs to come to the fore here to solve this 
crucial problem. Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you Senator O'Brien.
    Keith, Honorable Secretary.

                  STATEMENT OF KEITH E. EASTIN

    Mr. Eastin. Good morning, Mr. Secretary, Congressman Moran. 
Many people would view this hearing with some trepidation, 
especially if you were in my position, and one might want to 
take a vacation and probably blame it on the coming storm or 
something. I don't view it that way. I look forward to being 
here, and I thank the chairman for having this hearing so that 
we can express our views, hear what your concerns are, perhaps 
answer some of them.
    We are in a very challenging time here, and we would be 
foolish not to acknowledge that. I have prepared some written 
remarks. Rather than read those, I would----
    Chairman Tom Davis. Written remarks will be in the record. 
Questions will be based on the entire statement. Thank you.
    Mr. Eastin. I would like to clear up a couple of 
misimpressions that I think some people have. There are two 
things about this process that are important. One is that BRAC 
is a fact of life. The BRAC Commission has deemed it necessary 
to move about 22,000 people from various other places in the 
National Capital Region to Belvoir somewhere, somewhere on 
Belvoir property. That includes both the South Post and the 
Engineer Proving Ground that we will talk about sometime later. 
While some might question the wisdom of putting so many people 
down there, this is a fact of life that we the Army are 
required to move and prepare for that 22,000 people coming 
down.
    The second fact of life is that this all must be done by 
September 15, 2011. That's in the legislation. That does not 
mean that they have to come down here on September 14, 2011. 
They have to be here on September 15th. So all of the decisions 
that are being made in terms of citing the traffic problems, 
the moving problems, the building problems, all have to be 
accomplished by that date.
    So we do have a full 5-plus years. We have been working on 
this for the better part of a year now, and a lot of planning 
exercises have gone on, which is how you got the preliminary 
siting that you see, which is under question here today. But we 
believe this is going to be challenging, but we believe it can 
be done. We're going to have to keep our foot on the 
accelerator. We're going to have to manage this process very 
closely and insist that it be done.
    Which brings you to the next question, the question that is 
on everybody's mind. This move is not necessarily about 22,000 
jobs. It is not about environmental problems. It is not about 
where to locate on Belvoir. This process we are engaged in is 
all about traffic. We are talking about how to get the people 
into, in our case, the EPG or the south post, and we want--they 
are coming here to work, and we want to get them in a condition 
so that when they get up in the morning and look in the mirror, 
they're happy to think about going to work rather than sitting 
in some sort of traffic mess.
    Traffic in northern Virginia, I think it's an 
understatement probably to say that we are traffickly 
challenged here, and it is up to the Army and the Office of the 
Secretary of Defense working with VDOT and the FHA to see if we 
can't solve these traffic problems so that the workers can get 
here and work and do their jobs, so that the neighbors don't 
feel poorly about this influx of traffic. After all, I believe 
the Governor has suggested before, we are looking for the 
quality of life of our employees. This is how they are 
productive. And let's not forget that the people here in many 
cases are your neighbors. We are your neighbors. The people who 
are working here are already your neighbors. We want to ease 
their problems as much as we can.
    The Army appreciates the friendship that the State of 
Virginia has shown to the Army and the Defense establishment 
over the years. We are particularly happy with Fairfax County's 
welcoming of the Army here at Belvoir and elsewhere in the 
county. We recognize these are problems. The Army, and Defense 
in actuality, does not want to be someplace where they're not 
welcome. We feel welcome. Your problems in traffic are our 
problems in traffic. We expect to fix those so that we can all 
get on about the business of defending the country and having a 
good quality of life down here not only for us and our workers 
but for the various citizens of Fairfax County. Thank you, Mr. 
Chairman.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Eastin follows:]

    [GRAPHIC] [TIFF OMITTED] T9934.009
    
    [GRAPHIC] [TIFF OMITTED] T9934.010
    
    [GRAPHIC] [TIFF OMITTED] T9934.011
    
    [GRAPHIC] [TIFF OMITTED] T9934.012
    
    [GRAPHIC] [TIFF OMITTED] T9934.013
    
    [GRAPHIC] [TIFF OMITTED] T9934.014
    
    Chairman Tom Davis. Mr. Shane, thank you for being with us.

                    STATEMENT OF JEFF SHANE

    Mr. Shane. Thank you, Mr. Chairman. Good morning. And good 
morning, Congressman Moran. Mr. Chairman, I would also ask that 
my prepared remarks be included in the record.
    Chairman Tom Davis. I will just note for the record, 
everyone who submitted prepared remarks are in the record at 
this point so you can use your 5 minutes to sum up or clarify 
or accentuate a few points.
    Mr. Shane. Thanks very much. That is precisely what I'd 
like to do. It is my pleasure today, Mr. Chairman, to represent 
my boss, Acting Secretary of Transportation Maria Cino, and the 
entire Department of Transportation to discuss with you the 
potential impact on transportation congestion in our region 
that may result from the implementation of the BRAC decision 
that we have been discussing. I am going to even summarize my 
summary because we've been talking a lot about the projects 
that will be a part of the complex of responses.
    What I'd like to point out is that the Department of 
Transportation is fully engaged with other Federal agencies and 
with State and local entities in collecting and analyzing the 
data that will be necessary to assess the impacts on 
transportation from these BRAC realignments, and we are working 
with appropriate officials and all of those entities to 
implement what we hope will be timely and effective multimodal 
responses. A working group has been established to review the 
transportation impacts of the Fort Belvoir expansion with 
members from the Army, VDOT, Fairfax County, the Federal 
Highway Administration's Federal Lands Division, and, of 
course, DOD consultants.
    While the master plan for the Fort Belvoir development, 
including the environmental impact statement, won't be finished 
until the summer of 2007, the working group has developed a 
preliminary list, as you've already referred, a preliminary 
list of transportation improvement projects for the region. 
Federal Highway Administration's Virginia division office has 
been following the Defense Department's plan very closely to 
determine the BRAC impacts on current and planned 
transportation projects. And all of the projects that we have 
been discussing, of course, are in the mix for further 
discussion. The division will continue to monitor the BRAC 
plans to ensure that transportation issues, including impacts 
on highway safety, are considered in any environmental 
documents for BRAC installations, and that BRAC requirements 
are fully considered in the regional planning process. BRAC 
impacts will be factored into the Interstate 95/395 ``hot lanes 
project'' and BRAC impacts on the interstate interchange 
leading to the Marine Corps base at Quantico will also be 
evaluated.
    The Federal Transit Administration will assist the Northern 
Virginia Transportation Commission and local transportation 
providers in coordinating future transit service enhancements 
and expansions to serve the growing transit market resulting 
from the BRAC relocations.
    As the master plan becomes more developed, local transit 
agencies, including the Washington Metropolitan Area Transit 
Authority, the Fairfax Connector, Alexandria Dash, and the VRE 
will participate in the planning process to identify potential 
new transit services.
    The Federal Transit Administration is encouraging local 
agencies to implement transit-supported site designs for the 
proposed new construction and to identify opportunities for 
transit-oriented development that will increase accessibility 
to transit services. And I'm pleased to note that just recently 
the Department of Transportation, through its Federal Railroad 
Administration, approved a $72.5 million loan to the VRE under 
our railroad rehabilitation and improvement financing program.
    We know reducing traffic congestion is crucial for northern 
Virginia, for the entire Washington, DC, metropolitan area, and 
across the country. Congestion wastes fuel, wastes time, and 
robs the economy of productivity. Congestion costs Americans an 
estimated $200 billion a year. That's the conventional 
estimate. The Department of Transportation actually thinks 
that's woefully understated in terms of productivity as a 
result of congestion, and that's why in May of this year we 
announced the Department's new national initiative to address 
congestion across the country.
    I guess what I would say, Mr. Chairman, is that while we 
have obviously a very important problem here as a result of 
BRAC decisions that were made and the 22,000 souls that will 
now be realigned and relocated as a result of those decisions, 
the fact is that we have heard the extent to which northern 
Virginia is growing. This is a problem we would have faced in 
any event. We may have accelerated that problem somehow through 
the BRAC decisions, but the fact is that northern Virginia must 
have--must address its transportation problem, must address it 
with robust solutions, infrastructure, technology, a whole 
assortment of tools, including those which Governor Kaine was 
talking about.
    It may well be that this BRAC decision can be treated as a 
wake-up call and will force all of us to start focusing on the 
need for effective and timely decisionmaking and responding to 
these issues in a far more effective way than we've done in the 
past, or, as Congressman Moran rightly said, the economic 
growth for which northern Virginia has been so rightly 
celebrated will begin to be compromised in a serious way. Thank 
you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Shane follows:]

    [GRAPHIC] [TIFF OMITTED] T9934.015
    
    [GRAPHIC] [TIFF OMITTED] T9934.016
    
    [GRAPHIC] [TIFF OMITTED] T9934.017
    
    [GRAPHIC] [TIFF OMITTED] T9934.018
    
    [GRAPHIC] [TIFF OMITTED] T9934.019
    
    Chairman Tom Davis. Delegate Albo, thank you for being with 
us.

                   STATEMENT OF DAVID B. ALBO

    Mr. Albo. Thank you, Mr. Chairman.
    Mr. Chairman, Congressman Moran, I want to first of all 
thank you for holding these hearings here in west Springfield, 
because I think it shows that you know what the real problem 
is, and the problem is how do we help the people here maintain 
their neighborhood quality of life. I want to welcome you to 
Rolling Valley. This is my elementary school. And in 1974 I sat 
there, and a lunch lady was yelling at me, telling me to be 
quiet; and now there's no lunch lady and they've given me a 
microphone. So I figure I've really made it.
    Chairman Tom Davis. Dave, is it true you were here for 9 
years?
    Mr. Albo. Yeah, you know you can never beat you, Tom. 
That's one thing I have learned over the years.
    My formal remarks are in there, but I wanted to kind of 
talk to my friends at the Army and other friends on some more 
practical solutions on this. I am not happy. I don't think any 
of my constituents are happy that 22,000 jobs are moving here. 
Let's face the facts: The problem is that's the way it is. We 
need to learn to live with it, and we need to try to solve a 
problem.
    So the No. 1 thing I think I'd like to ask the Army is--you 
see this road here, Rolling Road. Rolling Road goes north to 
south through west Springfield through Saratoga. It's kind of a 
neighborhood road. It has kind of grown into something more, 
but that's what it is. It's a neighborhood road. And if you 
have any access onto the EPG for 18,000 jobs off Rolling Road, 
you will ruin this neighborhood, absolutely ruin this 
neighborhood. You cannot have Rolling Road become an access to 
the EPG whatsoever, not a single interchange, because what will 
happen is people will use the neighborhoods here to commute 
into their 18,000 jobs in the EPG.
    So how do you solve that problem? Well, first, the Fairfax 
County Parkway has to be constructed. Now, it seems strange to 
me that the Army decides it's cheaper to move a bunch of 
offices into EPG, and one of the reasons it's cheaper is 
because they don't have to pay for the roads. As the Governor 
said and as our two Congressmen said, the Fairfax County 
Parkway is funded, but funded to a lesser extent because no one 
knew we were going to have 18,000 jobs.
    We're kind of in a little bit of a quandary right now 
because we have an environmental problem and the State law says 
that the State cannot take over a road when there are 
environmental issues. I proposed a bill that will be heard on 
September 27th that allows the State to take possession of the 
road to complete it if there's a written agreement between the 
Army and the State to remediate, which is environmental lawyer 
talk for cleaning up the oil. So if we pass that, then I think 
there will be two methods: your method where the Army does it, 
or the State method. But that should really break open the 
logjam on that.
    The second thing is 22,000 jobs doesn't just mean 22,000 
jobs. It means a heck of a lot more. It means all the 
contractors, it means the dry cleaners, it means the stores, it 
means everybody who serves the 22,000 jobs, it means all the 
subcontractors who do the 22,000 jobs, it means all the people 
who want to move closer to work. So this actually has a very 
big school impact, too. Lee High School and Hayfield High 
School will handle most of the population brought in, but 
that's going to leave South County, which is already 
overcrowded, in a real quandary.
    Another practical solution I have is this. Imagine if you 
owned a couple acres on Route 7 in Tyson's Corner 30 years ago. 
You would be really rich. And what the Army has done by moving 
18,000 jobs here is they have created a huge financial windfall 
for the land in this area. One of the things to do would be for 
the Army to spin off a portion of the land, especially the very 
valuable land at Route 1, and transfer it for the county. Gerry 
is very familiar with the PPEA, Public Private Education Act. 
We can use that land to trade with the developer to build a 
South County middle school so we can keep the capacity at 
Hayfield and at Lee and at South County all for 5, 10 years 
when there will be an explosion in population up here.
    And with that I'll close, and more details are in my 
written remarks.
    Chairman Tom Davis. Thanks very much.
    [The prepared statement of Mr. Albo follows:]

    [GRAPHIC] [TIFF OMITTED] T9934.020
    
    [GRAPHIC] [TIFF OMITTED] T9934.021
    
    [GRAPHIC] [TIFF OMITTED] T9934.022
    
    [GRAPHIC] [TIFF OMITTED] T9934.023
    
    [GRAPHIC] [TIFF OMITTED] T9934.024
    
    [GRAPHIC] [TIFF OMITTED] T9934.025
    
    Chairman Tom Davis. Supervisor Hyland, thank you for being 
with us.

                 STATEMENT OF GERALD W. HYLAND

    Mr. Hyland. Thank you, Mr. Chairman, for holding the 
hearing and for Congressman Moran being here.
    The Department of Defense's decision to relocate over 
22,000 employees to Fort Belvoir I perceive to be a challenge 
for Fairfax County. It is an opportunity, but unless we find a 
way to fund the substantial transportation infrastructure 
improvements, it won't work.
    When the BRAC recommendation was first announced, Fairfax 
County made its concerns and suggestions known to the Army, and 
we suggested, frankly, that the agencies be spread among the 
various properties that comprise Fort Belvoir. However, after 
the Army decided to locate 18,000 of these persons to the 
Engineer Proving Grounds site as well as the National Museum of 
the U.S. Army, which will attract a million and a half visitors 
a year, it appears that our concerns and suggestions, frankly, 
were ignored.
    While the Army has said that these locations are not set in 
stone, my gut tells me that not much is going to change unless, 
through your committee, Mr. Chairman, and the Congress, through 
its oversight, we establish a different direction and possibly 
a different time table.
    Supervisor Kauffman will handle the transportation 
infrastructure issues and the time to put those in place on 
behalf of the county.
    I would like to emphasize in the rest of my testimony the 
National Museum of the U.S. Army, which I have been intimately 
involved with when the Army first came to me a number of years 
ago and said, Gerry, we would like to opportune you to give you 
the chance to help us locate our Army Museum at Fort Belvoir, 
not at Carlisle, not at some other location in the Washington 
area, but at Fort Belvoir, and we have a site right next to 
Pence Gate with all of the infrastructure in place.
    The Fairfax County Board of Supervisors supported that 
concept. We have made substantial financial contributions to 
that effort. And the main reason that we supported that 
location was that you can take advantage of the synergy of the 
existing historical sites in Mount Vernon, Woodlawn, Gunston 
Hall, and you would have in the center of all of those historic 
locations this museum, which gave us the opportunity of 
capturing tourists to this part of Fairfax County for a day, 
day and a half or 2 days. That means tourist income. It would 
help revitalization for Richmond Highway.
    When Senator Strom Thurmond introduced legislation to 
locate the Army Museum at Fort Belvoir, he stressed its 
proximity to Washington, DC, and Mount Vernon and said Fort 
Belvoir was the most suitable location. The Engineer Proving 
Grounds site, in our opinion, is anything but suitable. What 
was envisioned from the beginning was a historic destination in 
southeast Fairfax County that would give families a day or two 
to explore our country's founding and the leaders and soldiers 
who helped create it. In fact, the Army Museum's location is 
along the Washington-Rochambeau Revolutionary Route, the same 
route that the Army's first commanding general took as the 
Continental Army marched to victory at Yorktown. To move the 
Army Museum to the Engineer Proving Grounds, you not only lose 
the sense of history that prompted its placement there, you 
also lose the synergy of putting the Army Museum near Mount 
Vernon and other historic locations such as Woodland Plantation 
and Gunston Hall.
    We are a bit perplexed that the size of the museum has gone 
from 60 to 125 acres, and we sort of hold our breath that the 
concept of a theme park approach that was suggested by some may 
still be a reality. But at a minimum, what we are hearing is 
that we were having a museum at EPG with 18,000 employees. We 
will have a conference center, hotel. And you put a million and 
a half visitors a year at EPG, 18,000 employees, and what Mr. 
Albo has just suggested reminds me of the time that we talked 
about putting Major League Baseball on the Engineer Proving 
Grounds site, and the community surrounding the EPG site went 
ballistic, and with good reasons. And this is analogous to what 
we are proposing.
    So in closing, I would ask that we press the decisionmakers 
to reconsider the decision to make the National Army Museum at 
EPG to either reconsider the Pence Gate site or some other 
location along Richmond Highway, and then, most important, that 
we address the substantial question of timing of putting the 
infrastructure in place to support what is being proposed.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Hyland follows:]

    [GRAPHIC] [TIFF OMITTED] T9934.026
    
    [GRAPHIC] [TIFF OMITTED] T9934.027
    
    [GRAPHIC] [TIFF OMITTED] T9934.028
    
    Chairman Tom Davis. Supervisor Kauffman, thank you for 
being here as well.

                   STATEMENT OF DANA KAUFFMAN

    Mr. Kauffman. Thank you, Mr. Chairman, Congressman Moran. 
As you indicated earlier, I am providing this testimony on 
behalf of Chairman Connolly, who can't make it, and the rest of 
our board.
    I would also like to thank the Department of Defense for 
recognizing Fort Belvoir's key location, the dynamic community 
that surrounds it, and also respecting the men and women who 
live in our neighborhoods who work for the Department of 
Defense and make this work for us every day.
    Indeed, if this fact of life, as the Secretary has said, 
that is BRAC was wedded to the transportation improvements, 
this could be the single biggest economic opportunity our end 
of Fairfax County will ever see. Unfortunately, Mr. Chairman, 
the proposal that the civilian leadership has put on the table 
without the transportation improvements is a lose-lose; not the 
desired win-win for our community.
    From the first day this plan was rolled out, it came with 
an admitted funding gap of close to three-quarters of a billion 
dollars in transportation funds, and that was funding just to 
support the 14 most critically needed transportation 
improvements, not all those that need to work over time to keep 
this viable.
    And it's not just--well, it puts us in the position, if you 
will pardon the use of a modified movie line, that if you don't 
build it, if you don't build these transportation improvements, 
they will still come anyway. And that is unacceptable.
    The idea of moving this forward quickly is also critical, 
because, as you know, Mr. Chairman, even if you had the money 
on the table today, the time it takes to make a transportation 
improvement real requires months and years of environmental 
review, then the engineering, then the physical construction.
    The plan assumes that the missing leg of the Fairfax County 
Parkway, the spine to connect all of these commands together, 
is going to be in place come September 2011 when this opens, 
and unless the decision is made in the next year of how to 
proceed, that road won't be in place. And also to add insult to 
injury, on the environmental cleanup, the contractor pulled 
out, just abandoned the site, because the Army funding to 
complete the work isn't there.
    So this is just one of those 14 missing projects. You asked 
the Governor, do you have a list of projects, and I'll submit 
for the record two pages single-spaced of projects that need to 
go into the mix.
    You also had asked the question about why are we objecting 
to this huge economic largesse as presented. Well, I give you 
another analogy. This morning we heard some great analogies on 
our bus tour, but the--and what comes to my mind is someone 
giving you a brand new car that doesn't have an engine, doesn't 
have the wheels, doesn't have the gas tank, and someone saying, 
don't you love the smell of the leather upholstery? Well, this 
proposal is like that car without the tires, without the 
engine, without the gas tank. Give it all to us, and I'll join 
you in saying, hosanna, this is a great economic opportunity.
    My colleague Gerry Hyland has well captured the concerns of 
the Army Board. It belongs to the highway located there. It 
will serve the community's and the Army's best long-term 
interests.
    I am also extremely grateful to have heard your comments on 
incorporating the GSA warehouses into the mix. However we 
define smart growth, and I'll admit that is a work in progress, 
it is dumb to not include that land in the mix. Yes, it is 
hard, but that is why you bring leadership together, to do the 
hard things. Let us make that work. Personally I would love to 
see that as the location of the hospital for the reason it can 
be collocated with the medical education campus of the Northern 
Virginia Community College, George Mason Medical College of 
Virginia, and setting proximate to Metro just as the Bethesda 
Naval Medical Center does. But whatever it is used for, it 
needs to be in the mix.
    In closing, Mr. Chairman, at a recent community meeting I 
was asked a very simple question, just what do I think the Army 
was thinking when they came forward with this proposal. My 
answer then and my answer today is that I don't have evidence 
that the Army was thinking, at least when it comes to the 
immediate impacts on our community and what is in the long-term 
best interest of the U.S. Army. I would remind folks that it 
isn't unpatriotic to question a proposal that is brought 
forward by our civilian leadership. We have to question it, and 
we will continue to.
    We can have a win-win solution if the transportation is put 
on the table and if we take a more long-term focus on where the 
commands are located.
    Thank you again for the opportunity to testify.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Kauffman follows:]

    [GRAPHIC] [TIFF OMITTED] T9934.029
    
    [GRAPHIC] [TIFF OMITTED] T9934.030
    
    [GRAPHIC] [TIFF OMITTED] T9934.031
    
    [GRAPHIC] [TIFF OMITTED] T9934.032
    
    [GRAPHIC] [TIFF OMITTED] T9934.033
    
    [GRAPHIC] [TIFF OMITTED] T9934.034
    
    [GRAPHIC] [TIFF OMITTED] T9934.035
    
    Chairman Tom Davis. Mr. Tistadt, thanks for being with us.

                   STATEMENT OF DEAN TISTADT

    Mr. Tistadt. Good morning, Mr. Chairman. On behalf of the 
Fairfax School Board, we thank you for this opportunity to 
speak this morning.
    I'll change the focus just a little bit initially, but I'd 
also touch on transportation. The school system certainly 
applauds the notion of the DOD trying to be more efficient and 
welcomes the idea of creation of more jobs in the region, but 
we do have two concerns to speak to. One was alluded to 
earlier; that is, the capacity of our schools. If this change 
results in differences in residential development and rapid 
growth in this part of the county, we are limited in our 
capacity to handle that. We have very little capacity of any of 
the elementary level and very little at the middle and high 
school levels.
    On the transportation front, we have 1,200 buses 
transporting 110,000 children a day. Probably about a third of 
those are in this part of the county to be impacted by traffic 
changes in this part. We already struggle with getting children 
to school on time and get them to programs that they need to 
take. We already open schools earlier than parents would like 
and open elementary schools later than they would like. And 
we're worried that changes in transportation and traffic in 
this part of the county will impact negatively our ability to 
get children to school, may require that we change bell 
schedules to even more onerous times.
    We have heard recently about potential budget cuts at Fort 
Belvoir that might result in some closers of gate staff at that 
post that would exacerbate these other challenges even further. 
So we do have concerns in that regard.
    Having said that then, we asked that the Fairfax Schools be 
invited to participate in the process so we could have an 
understanding of what's happening; that under the National 
Environmental Policy Act cooperating agency status can be 
assigned to the school system as a means of facilitating an 
evaluation of potential impacts in mitigation. Whether the part 
of the EIS team evaluates impacts or potentially impacted 
governmental agencies, it is necessary for EPS to have insight 
into the size, mobility, household income of personnel to be 
located. We would also like to find out the status of the new 
status plan for Fort Belvoir. So we welcome the opportunity to 
be involved in the process.
    At the heart of our intent is to provide the best possible 
education to the military families we will be hosting and for 
the larger community in which we live. This can be accomplished 
by allowing the school system to be involved in the process.
    Thank you very much.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Dale follows:]

    [GRAPHIC] [TIFF OMITTED] T9934.036
    
    [GRAPHIC] [TIFF OMITTED] T9934.037
    
    Chairman Tom Davis. We have our citizen member here. We 
very much appreciate you being here.

                   STATEMENT OF KEVIN D. KIRK

    Mr. Kirk. Thank you very much, Mr. Chairman. I am extremely 
pleased to be here to represent the residents here of west 
Springfield and the folks that are probably going to be the 
most impacted in the short term and eventually in the long term 
as a result of the BRAC decision.
    I am convinced after listening to you talk to Governor 
Kaine this morning that you certainly have our major concerns 
in mind as far as transportation, local infrastructure, quality 
of life for the residents that are going to be here.
    What I would like to do is to bring just one other item up 
to your attention, and that is that, one, the folks I represent 
in the civic association are keeping an open mind toward the 
BRAC decision and the impact it is going to have on us. And the 
reason we are keeping an open mind is because we are watching 
you, our elected representative at the Federal, State, local 
level, to see what actions you are going to take to address the 
concerns that you already know about.
    And one of the things that I think that I would like to 
make you aware of from the folks that I represent is that it is 
going to take a significant amount of political will on the 
part of our elected representatives to make BRAC the forefront, 
I guess, of some of the short-term legislation that is going to 
have to occur to either support the move, to terminate the 
move, whatever it is going to be.
    The BRAC is a Federal decision, and the location was chosen 
by the Federal Government. We may be the recipient of some 
excellent largesse, but this has to be a Federal priority then 
if this is their decision to move the Federal workers down to 
the Fort Belvoir area.
    Yes, we recognize we are going to have to do our part to 
support this. We don't hope to support all of it. And for the 
State folks, this is, I think, going to have to result in some 
rethinking about how the things--how things and business is 
done in Richmond. Northern Virginia is supporting the rest of 
Virginia in transportation and education. If you are going to 
bring these people in here, we may have to relook those 
formulas to redirect funds back up to the northern Virginia 
area to allow us to prioritize and complete those projects it 
is going to take to support the people that may be coming into 
this area to work 5, 6, 7 days a week or to live here.
    For the county people what I would like to offer is the 
fact that the BRAC is obviously going to have a significant 
impact on zoning and how we prepare ourselves to accommodate 
this influx of people and all of the associated local 
infrastructure that is going to be required, whether schools, 
water treatment plants, power facilities, fire, police, the 
commercial activities to support recreation, entertainment.
    The people in Springfield enjoy a suburban lifestyle. They 
moved into this area many, many years ago with that thought in 
mind. We certainly enjoy the open land in the county parks that 
we have in this area. We certainly would not like to lose any 
of that to accommodate the BRAC and its decision to put a new 
Pentagon down here.
    Yes, we are going to have to live through the short-term 
issues of going to work heading north or south. I think we can 
do that. We are just in the end looking toward our elected 
representatives to put forth that effort to make this thing a 
priority so we can get through this in about as painlessly and 
about as reasonable a manner as we can without turning it into 
a cat fight, I guess, between parties, between Federal and 
State representatives and State and local folks.
    Thank you very much.
    Chairman Tom Davis. Thank you very much. That was 
excellent.
    [The prepared statement of Mr. Kirk follows:]
    [GRAPHIC] [TIFF OMITTED] T9934.038
    
    Chairman Tom Davis. Let me just assure you I think from the 
State, the locals, Republicans, Democrats, I think we are 
staying united on this. It is important we stay together on 
this, and I think your admonition is warranted, and I 
appreciate it.
    Mr. Kirk. I certainly appreciate that, and I wanted to let 
you know that I don't have a doubt that our elected 
representative in Virginia is going to be able to do this. 
Where I have my concerns is probably in the larger collective 
body either at the Federal level or the State level. You are 1 
out of 435 voices out there, and it's going to take a lot of 
leadership on your part and on the Virginia contingent to make 
this thing happen.
    Chairman Tom Davis. Thank you very much.
    That is a good segment for you, Ms. Watts.

                   STATEMENT OF VIVIAN WATTS

    Ms. Watts. Thank you for including me to make remarks. 
There is so much to say. I will start by simply associating 
myself with most of the remarks that have been made by everyone 
this morning, particularly, I must say, my friend Dana Kauffman 
where I think he hit a lot.
    Five years is an impossibly short time, in my experience. 
So I am going to take my time to go specifically into 3 years 
that were raised in my mind as I looked at this flow of where 
the traffic is supposed to come from.
    Let me go first to access from the north via I-395 or 
Metro. All employees using I-395 or those being shuttled from 
Metro under the Army's current plans if Metro is not extended 
will have to use Franconia-Springfield Parkway, that is Route 
7900, between I-95 and EPG. This travel pattern was not 
addressed at all in the siting analysis of road capacity. It 
constitutes upwards of 10,000 commuters who do not currently 
use this stretch of road and were never anticipated in its 
projected capacity use.
    Two construction projects are imperative, and again this is 
my district. EPG is in my district. First, a grade-separated 
intersection must be built for the only at-grade intersection 
in this section of the parkway at Spring Village Drive, Bonnie 
Mill Lane, which is not addressed at all in the siting analysis 
and will cost $350 million. So that is one item to add to the 
list.
    This intersection serves many residents including over 
2,000 residents of Green Spring Village, a major continuing 
care retirement community. The intersection is already 
presenting severe problems.
    Second, improved ramps to and from EPG from I-95, which is 
No. 3 on the Army list, must be completed before employees are 
relocated to EPG. Again, we are looking at 10,000 vehicles 
using a stretch of highway that was not planned at all for that 
usage.
    A second travel pattern, which is access from the north via 
Backlick or Rolling Road, this travel pattern also was not 
addressed at all in the analysis. The interesting geographic 
division in the analysis which separate employees commuting 
from the north and those from the west obfuscates, masks this 
commuting impact. The north grouping includes--and I have 
included ZIP codes--Annandale, North Springfield, Springfield, 
Barcroft, Lincolnia. These employees will use Backlick Road. 
They won't come out to Highway 395. In the west grouping, 
employees from King Park, west Springfield, a good portion of 
Burke and some of Fairfax 22032 will use Rolling Road. Again, 
they won't be coming out to 395. That is not northward--or, I 
am sorry, they won't be dropping down to the parkway. They will 
be coming straight across on Rolling Road.
    Sizable portions of Backlick and Rolling, as have already 
been mentioned, are two-laned and/or were built as subdivision 
streets with homes on half-acre lots, with front yards and 
driveways on both sides directly facing the street. At least 
Route 1 was built and developed as a commercial highway. 
Addressing the safety issues on Backlick and Rolling Roads will 
be costly to the State and forever change these neighborhoods.
    A final pattern that I wish to address is the access from 
the west by the Fairfax Parkway, 7500, because it is so 
central. Again, our designated panel addressed construction of 
the parkway across EPG; however, I want to underscore the 
criticality of expanding its capacity. The siting analysis 
severely underestimates the growth in commuting from the west 
by focusing on the current employees' place of residence 
instead of making a 20 years projection of travel patterns, 
which is standard for road improvements. Whatever we put in, we 
project 20 years. Because of the cost of housing, EPG employees 
will increasingly come from Centreville, Chantilly, Herndon to 
the west. In addition, the travel pattern was not addressed at 
all of the projected 1 million visitors to the Army Museum, 
many of whom will also be drawn to the Air and Space Museum at 
Dulles, impacting the Fairfax County Parkway, where there will 
be other intersections that are at grade.
    Mr. Assistant Secretary, I implore you to include full 
funding of these and many of the other transportation projects 
in the Army's congressional budget requests for these specific 
off-base transportation improvements and for the other critical 
projects in the siting analysis. We have just 5 years that 
funding has to be in place.
    I know that Congressman Davis and Congressman Moran agree 
that our constituents deserve no less than a full and honest 
costing of BRAC's impact so that they are in the strongest 
position to ensure that Congress, all the rest of those folks 
that you were referring to, will deliver.
    And finally, given the tight timeframe imposed for 
completion of this realignment, adequate analysis and review 
will be challenges.
    Today as I address you, I chose to wear not my normal 
Virginia seal pin, which is Thus Always to Tyrants, because I 
didn't want to lay down the gauntlet on this decision, but 
instead borrowed a pin that has the State of Virginia's flag 
and the United States of America flag joined together. Again, I 
will certainly offer my expertise both in transportation, but 
particularly as someone who has driven these roads for 40 years 
and knows how these patterns develop. I look forward to working 
closely with you on these all-important details.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Ms. Watts follows:]

    [GRAPHIC] [TIFF OMITTED] T9934.039
    
    [GRAPHIC] [TIFF OMITTED] T9934.040
    
    Chairman Tom Davis. Senator Puller.

                   STATEMENT OF TODDY PULLER

    Ms. Puller. Thank you, Mr. Congressmen, for coming out here 
and listening to the concerns of the people who will be 
impacted by the BRAC decision.
    Now, I represent all of the Fort Belvoir post. I do not 
represent the Engineering Proving Ground. And I have been 
working for I think it is 14 years trying to improve the Route 
1 corridor in Fairfax and Prince William County. And currently 
over 20,000 people come to the main post at Fort Belvoir every 
day, so our roads down at southeast Fairfax County are in 
gridlock when those people come to work and when they go back 
home. And many, many of them come from the south, and it is 
almost impossible to go south of Fort Belvoir in the evening 
commute.
    So I was very glad, when they decided not to put 18,000 
more people on top of the 20,000 that already had come to Fort 
Belvoir and to try to develop the Engineering Proving Ground 
and have the new employees go there rather than to Crystal 
City, and I think we are very fortunate that these employees 
didn't go out of State. That could have been a devastating 
impact to us in Virginia.
    So I think what we need to do is try to do the best job we 
can, because we are going to--this is a reality. It is going to 
happen, and we have to make it happen in the least--with the 
least amount of problems that we possibly can do. And our--and 
my--my commitment to you all, along with Delegate Watts and 
Delegate Albo and Delegate Sickles, is that we are going back 
into session at the end of September specifically to work on 
transportation, which we have been doing most of the whole year 
without success, I might add. But we need to go back and do 
something so that this State steps up to its responsibility to 
make our transportation system work not only in northern 
Virginia, but all across the Commonwealth. But in this 
instance, we really have to all go down there and work together 
in the Senate.
    We have been working together. We have passed several bills 
that are sitting over in the house, and we need to go down 
there and be serious about this and get our act together for 
the citizens of northern Virginia and the whole Commonwealth 
and fund our transportation infrastructure so that our citizens 
will not be even more impacted than they are right--than they 
are currently, but for the future. And we can expect no less, 
and I pledge to go down and work with both sides of the aisle 
and try to get a plan. And I don't--I am not wedded to any 
plan. We are willing to talk about anything, but we need to go 
down there and be serious about it and get something done, and 
I plan to do that.
    Thank you very much.
    Chairman Tom Davis. Thank you very much.
    I also wanted to note we have a statement from Mark Sickles 
if he was offered an opportunity to speak and to put it in the 
record, and we appreciate that very much as well.
    [The prepared statement of Mr. Sickles follows:]

    [GRAPHIC] [TIFF OMITTED] T9934.041
    
    [GRAPHIC] [TIFF OMITTED] T9934.042
    
    Chairman Tom Davis. Let me start the questions.
    Keith, I am going to start with you. I want to note for the 
record that you didn't make the BRAC decision. You came in to 
implement.
    Mr. Eastin. I was not around for the BRAC decision.
    Chairman Tom Davis. Makes the conversation go a little 
easier, as you and I and Mr. Moran voted against the BRAC 
decision when it came up before.
    Let me ask you this: There has been discussions of an 
amusement park or something else to go with that. Can you give 
us a clarification with the Army Museum, what is envisioned at 
that point and where we are going?
    Mr. Eastin. I am not often quoted in the San Diego Tribune 
or San Francisco Chronicle or Manchester Guardian in England, 
but somehow I made it to those newspapers when I said this plan 
was dead on arrival.
    A plan was submitted a couple years ago to basically do 
more a demonstrative use of EPG and the museum. That is just 
not in keeping with what the Army wants out there, and it is 
not in keeping with the museum, what the museum wants. So 
amusement parks and other flashy displays are--will not be 
considered.
    What we are looking for in the museum is to present any 
museum that is comprehensive, that tells the Army story, and is 
a tribute to the men and women who have served and sacrificed 
for the Army and for the country. We believe we have had a good 
story to tell, and we want to tell it completely rather than 
having what might be termed an abbreviated museum.
    So the question is why it's been raised here, why would we 
move the museum from what is known as the Pence Gate site down 
on Route 1 out to the Engineer Proving Ground, and why do you 
need all of that excess acreage.
    This museum was put together with the idea that it would be 
funded privately, that appropriate funds would not be used for 
the building of the museum. The museum, we would estimate, is 
going to cost somewhere in the neighborhood of $175 to $200 
million for the building itself, and when we start adding 
exhibitry to that, anyone in the museum business can tell you 
you don't just move a tank or a gun or out into a bullpen at 
the museum and let people just go in and look at it. You have 
to tell a story. Stories are expensive. But we are looking at 
probably another $90 to $100 million in exhibitry.
    By the time we are finished, what are we looking at? A 
museum that will cost maybe $300 million. This is a tall order 
for any private fundraising organization, especially in this 
rather austere fundraising atmosphere that we have faced here 
in the last 5 or 6 years. So anything we can do to assist the 
fundraising on this museum I think is going to benefit the Army 
and benefit the story we have to tell.
    That is one of the reasons we moved it to EPG. Of course, 
the other reason was I appreciate Gerry Hyland's work on the 
museum. A lot has gone into getting the museum down to Belvoir, 
and in a lot of ways it would not have happened without Gerry 
Hyland's help.
    But after it was sited at Pence Gate, something came along 
called BRAC, along with its massive traffic problems that we 
see. That coupled with the fundraising constraints on building 
a first-class museum, I think, caused us to think about putting 
this out at the EPG.
    What will be going out there, Mr. Chairman? We put out a 
request for information to the Department of Defense and public 
to see if there was some interest in building a hotel and 
perhaps a conference center, and incidentally, while you are at 
it, build me a better part of my museum.
    We have gotten a number of expressions of interest in that. 
We will know more this fall, hopefully by early November, of 
what the quality of that interest is. That is the reason we did 
that.
    This will not be an amusement park under anybody's stretch 
of the imagination. There will be very little, if anything, 
outside of the four walls of the museum that don't relate to--
directly to museum experience.
    Chairman Tom Davis. Let me just get a reaction, Mr. Hyland. 
I am sure when Senator Thurmond introduced legislation to put 
in Belvoir, he probably meant Belvoir. I wonder as you walk 
through the line of thinking that has come from the Army since 
then, do you have any thoughts or you, Mr.----
    Mr. Hyland. Thank you, Mr. Chairman. In my testimony, 
written and oral, and from the beginning--and I think Senators 
Thurmond, Warton and Allen were helpful in getting legislation 
passed. We looked at the museum as an opportunity to, in 
effect, collocate with other existing historical sites in the 
southeast and part of Fairfax County, in the middle of them, 
and what we were trying to do is to capture those persons who 
now come to those sites. We have about a million visitors to 
Mount Vernon in a year as it is. As a matter of fact, I have a 
proposal before the Fairfax County Board if this happens, we 
would propose to have a shuttle that would go among those 
various sites, and the synergy of having it there made so much 
sense.
    But, second, the opportunity to capture people in the 
county for a day or 2 days as opposed to their going into 
Washington. If it's at EPG, the folks--I am not sure how many 
people are going to come from Washington, DC, which is the 
major destination, out to the museum. We can capture people 
coming up from 95 to go to the museum, so they can go to the 
museum and go right into Washington. So that denies us the 
opportunity to capture people in Fairfax County for a day and a 
half to 2 days, which obviously is tourist income. That is the 
best business in the world. They come, they go, and we don't 
have to educate their children.
    The second question that I now have and the Army has 
proposed, and I presume this will be on government land, they 
would propose a hotel conference center. They've also talked 
about using enhanced use leasing, which means putting public 
office space for the private sector on government land, which 
obviously doesn't do anything for us as far as our tax base, 
but the whole concept of helping us with revitalization, which 
was the main reason, the impetus, for our pushing to put the 
museum at Fort Belvoir is lost. So I think it is an opportunity 
for us that we anticipated was a good investment for us, and 
unfortunately EPG just doesn't do the same thing for us.
    Chairman Tom Davis. Do you have anything to add to that?
    Mr. Kauffman. Thank you, Mr. Chairman. I appreciate the 
further clarification from the Secretary.
    I go back to our initial concerns and seeing the 
opportunity for this Army Museum. We were looking at this as 
being integral development; not seeing a significantly expanded 
site where the museum itself isn't bigger, but what you have 
done is located a lot of hotels, eating facilities, etc., on 
post, not on the economy where we are trying to bring about 
redevelopment, where we are trying to knock down eyesores. So 
that is a critically missing piece. Gerry Hyland alluded to it, 
but this is supposed to be a stimulus to redevelopment as well 
by putting everything together. I will again use the term 
Disney atmosphere, where you have the hotels next to the bars 
next to the shock-and-awe rides to drive patriotism 
electronically. I think it needs to be a museum that gives us 
the opportunity to leverage private investment off-post.
    Chairman Tom Davis. Secretary Eastin, I want to talk a 
little bit about the money and the time line. It is not like it 
is vacant, and all of a sudden September 15, 2011, everybody 
moves in. I assume this would be staged, which means some of 
these transportation improvements would have to be effectuated, 
completed sometime prior to that.
    We have 14 identified projects. Three of them have some 
level of funding. None of them have completed funding. We have 
to do it within 5 years.
    The title of the World War II movie was A Bridge Too Far, 
and I wondered with this, within that 5-year framework, even if 
we had the money today, by the time you go through the 
planning, the environmentals on this, send it out to contract, 
given everything else, it is a tough reach, and we are talking 
about now we don't know where this money is coming from.
    The Governor has stepped up today and said they want to be 
part of the solution. They can resolve it with the General 
Assembly. They never said they don't want to be part of the 
general solution. They can't solve it all.
    What kind of money does the BRAC have available for this? 
How much were you looking to Congress to come back? You get to 
a point you were worried about the implementation. How do you 
see this going at this time? What additional help do you think 
you are going to need outside of BRAC resources?
    Mr. Eastin. First off, I think, going back to the initial 
part of your question, we are looking at the 14 projects Pierce 
Homer and I have been discussing these. We will be meeting in 
the next couple of weeks to try to agree on what we think is a 
likely list of projects and to try to price those out so that 
we can get some idea of how much they are.
    Of the $625 million or so worth of projects, two of those 
are largely financed already, and that is the widening of the 
I-95 and the EPG part of the Fairfax County Parkway along with 
Woodlawn Road, which, of course, is funded by Congress or will 
be completely in the year 2008. So if you take those out, we 
are looking for about $475 million, if the price holds up after 
analysis. But our engineering and traffic people tell us that 
should be enough to handle this traffic.
    What we are trying to do here is with EPG and with the 
Fairfax County Parkway that is largely designed, probably 
almost ready to go, with some enhancements due to the much 
larger traffic use which will largely deal with the on/off 
ramps, probably not the parkway itself. So a lot of that design 
has been done. The I-95 design, which every time we go down in 
this area, we see in painful detail, that, as I am told, is 
largely finished. So what we really need to do is figure out 
how to design and get people on and off of 95 so that they 
don't run through Delegate Watts' neighborhood and further 
complicate those problems.
    Chairman Tom Davis. And Delegate Albo's neighborhoods. I 
want to give credit on this.
    I understand that does not include the cost for additional 
roads on EPG that the Army would install as part of this 
development program.
    Mr. Eastin. That is already included in the BRAC funding.
    Chairman Tom Davis. That is outside of money we are talking 
about.
    I've got a few other questions. The time line is still very 
tough, particularly because of the identification of funds, the 
ability to go out to bid, the ability for the design, the 
environmental assessments. Obviously the quicker we can start 
on that, the better opportunity we have.
    Let me ask you, Mr. Shane. I mean, it is ambitious, isn't 
it, to try to get this done in the period of time that the BRAC 
allots? These are the orders he was given, in fairness. But 
this is very ambitious, it seems to me, given where we are, 
isn't it?
    Mr. Shane. That is certainly a fair statement.
    Chairman Tom Davis. I think one of the things that we want 
to explore is some delay on this, and I think the BRAC calls 
for this to be done by a date certain, but given some of the 
other funding priorities coming within the Defense Department's 
budget and the MILCON's budget, that is something we will 
explore with you, you do have your orders at this point. I 
don't expect you to say anything else. But from our 
perspective, we intend to explore the time line on this. We 
think it is unrealistic, and we will try to work with you on 
that, and that will give you some breathing room to try to 
resolve some of those issues.
    Let me ask, if I can, about the airport, Davidson Airport. 
What is going to happen with the changes at Belvoir? Is it the 
utilization will be somewhat different under the new plans?
    Mr. Eastin. Excuse me.
    Chairman Tom Davis. Go ahead.
    Mr. Eastin. We don't anticipate any real change in the use 
of Davidson. And, of course, it is an active airfield. It has 
very important security purposes here in the National Capital 
region flying and ferrying various officials to the government 
here and there. And it performs a great service as a platform 
during any times of emergency.
    We looked at a time perhaps using part of Davidson in the 
planning process for part of the jobs and locations here at 
Belvoir. While that in the long term might be possible in the 
time we have, I don't think that is very realistic. We would 
have to find--it serves a purpose. We would have to find 
another place for it if we wanted to use that.
    Chairman Tom Davis. I would note for the record our 
office--we discussed this further with you. It continues to get 
complaints on noise emanations, and we need to have some 
further discussions on that.
    The GSA warehouses are sometimes--I discussed in my opening 
statements, Mr. Kauffman discussed them, Mr. Moran has alluded 
to it. Currently it seems to me that given the magnitude of the 
issues we face on transportation, warehouse usage around a 
metro center like we have at the Joe Alexander Springfield 
Center, where you have the VRE coming in from the south, you 
have Metro coming in from the north and the east, is not a good 
utilization; that, in fact, warehouses could be moved somewhere 
else probably much more efficiently from a transportation 
perspective, and the area that houses the warehouse could 
probably have the 18,000 people move to EPG just from our 
government, 6,000 or 7,000 people could move there and right on 
top of a transportation center. That would greatly alleviate 
some of the problems that we face there on the EPG.
    I know that is outside of your charge, but would you be 
willing to work with Mr. Moran and myself and GSA if we can 
find an appropriate location for that?
    Mr. Eastin. Absolutely. We have discussed this before. 
GSA--but for the time that it would take to utilize that site, 
and, of course, the money involved, it always seems to get back 
to that little bugaboo that we have to find funding. It is a 
utilized site already, and we have to find another place for 
them and due to them moving. But in the meantime, if we can 
come up with some, I think, innovative approaches to that, we 
would be more than happy to consider them.
    By the way, consideration of that will be done in our 
environmental impact statement. We have considered that as an 
alternative.
    Chairman Tom Davis. I want to put that on the table because 
I think that makes trying to put a size 8 foot into a size 5 
foot makes it a little bit easier. That is a lot of work to do.
    Mr. Eastin. Mr. Chairman, if you will let me clarify one 
thing that came up before, that is the contractor tail on the 
employees coming down there. As we know, the government does 
not work alone. It has a gaggle of contractors that are of 
various degrees of expense that follow them around and help 
them out. So it is proper for the Governor and others to 
suggest that if you are bringing 18,000 people to EPG, gee 
whiz, there is probably a whole bunch of contractors that are 
going to follow along with them.
    What has not been clarified, I don't think, in this is that 
we are bringing 12,400 Federal employees to EPG. Also we are 
bringing 5,600 contractors, who will be collocated with those 
Federal Government employees. So the contractors are already in 
the mix, but we are talking about the 18,000.
    Are there going to be additional contractors? Probably. But 
the lion's share of them are already accounted for.
    Chairman Tom Davis. The clarification itself will at least 
initially--who knows how this stuff grows in the outyears. We 
can only work with the figures that we have here today.
    Before I turn to Mr. Moran, I'll have some other questions. 
Let me just ask, we talked about the 14 projects. You were 
getting together with Pierce Homer, who is the Governor--
Secretary of Transportation, who I worked with for many years 
when he was in Prince William County. He was very able in 
getting those funded. I have heard from other members, Ms. 
Watts, solving those 14 projects, getting those fully resolved 
doesn't necessarily make this a livable item. Is that far 
enough?
    Let me get a comment from the elected official or citizens 
on the panel if they care to address that. Is that the end of 
it if we get these projects? And I guess from Mr. Homer's point 
of view, if you look at this and work with the Army, I hope 
you'll look at input from these officials and maybe factor--if 
there were more we need to factor in more. We have to get our 
arms around the problem--I know Mr. Albo in his opening remarks 
alluded to the Rolling Road situation--in trying to do that, 
give you a chance to clarify your views on that.
    Ms. Watts, I'll start with you and then anyone else who 
wants to chime in.
    Ms. Watts. Again, my statement was put in the record, and 
this is why I went through the exercise of including the ZIP 
codes of where I thought the traffic sheds would go to Rolling 
Road or to Backlick Road. It's something we identify. I am sure 
that on the other side of 95, there still may be things that 
I'm not familiar with, such as Telegraph Road and other things 
that are on that list of 13. But I know again for various 
reasons this side of 95 has not necessarily been on the radar 
screen.
    And this may be the tip of the iceberg, but let me then 
also tie in to my very strong concern that I started out with 
about the only at-grade intersection on the parkway there at 
Spring Village and Bonnie Mill. Again, it is already a problem 
intersection not just because of the 2,062-plus and they say 
62-and-better aged residents of Green Spring Village, but also 
because of the volume of traffic that is going through there. 
If it's 35 million at that one critical interchange--
intersection, when we talk about improvements to the parkway, 
either that which goes across EPG or the parkway that serves 
that, the region with the westerly traffic that I also was 
alluding to, that gives you some idea of the magnitude of 
additional costs that we have to be addressing when we say, 
well, we have to do more as far as the design because of these 
22,000 commuters that haven't been planned on. The more has a 
significant price tag.
    Chairman Tom Davis. And let me just say, Secretary Eastin 
and Secretary Homer, as we look at this, if we can factor these 
in as you come together, and you can prioritize them, you want 
to get a list of every road where you approve of this project. 
But I do think what you talked about on the Green Spring 
Village could be significant. If they need to be addressed, let 
us get them up front so we can put them in the package.
    Mr. Kauffman.
    Mr. Kauffman. I would not want the committee or the members 
of the audience to walk away thinking that this is the golden 
14 and solve for those and that is it. Fourteen to a certain 
extent does dumb down or pare down to say this is what you need 
most critically, and those are the terms used to support the 
proposals as ruled out. I think it has to be a combination of 
rethinking where those commands are, and that would 
significantly alter what our other priority projects are, and 
also those priority projects include next to nothing for 
transit, which, particularly when the day is done, I agree with 
other speakers, most of the folks coming here will in the 
future years be coming from the south.
    I appreciate the USDOT finally coming around on the dollars 
for the VRE, but that little engine that has could to this 
point is now breaking down and breaking down in a horrible 
fashion. We can't rely on it as a system. We need to do more, 
and transit has to be integral from the south.
    Chairman Tom Davis. Thank you.
    Anyone else?
    Mr. Albo.
    Mr. Albo. If you recall, when you were on the county board 
building the Fairfax Parkway, one of the things you did, you 
got the developers to build a parkway to enable people to get 
in and out of their offices. This is kind of a messed up 
situation here because you have the Army, who, under Federal 
law, has the absolute right to do whatever they want to do on 
the EPG, and my friends here in the county don't have any 
ability to request proffers from the Army to build 
transportation access or to alleviate school overcrowding that 
is caused by the development.
    But I would hope what could happen during this process is, 
Congressman Moran and Congressman Davis, with your oversight 
over the Army because of your elected position, that you can be 
in the position to, in a way, put your local government hats on 
that you had many years ago and require some kind of proffers. 
That was the idea behind my suggestion of spinning off some 
land to be able to do a PPEA trade to build some school space. 
There's a lot of assets. In my written statements as soon as 
the President of the United States signed the order that put 
22,000 jobs here, he compressed 30 years of appreciation on 
land into 1 year. The land out here right now is worth tens of 
hundreds of millions of dollars, and there's a lot of assets 
that are to be used to be able to solve some of these problems 
that we listed today.
    Chairman Tom Davis. Yes.
    Mr. Hyland.
    Mr. Hyland. In direct response to your question, at the 
last Board of Advisors meeting with Fort Belvoir, the Office of 
Transportation of the county prepared a list of additional 
transportation improvements, which were given to the Army. I 
believe all of those are referenced as an attachment in 
Supervisor Kauffman's testimony. So there are many other 
improvements that we consider to be helpful and necessary. So 
you have them.
    Chairman Tom Davis. Let me just finally explore something 
Mr. Albo suggested with Mr. Eastin; that is, something we 
discussed. If you have something--roughly 800 acres, what is 
it----
    Mr. Eastin. 804 acres.
    Chairman Tom Davis. The county has 25, as I recall, that 
they are giving us; is that about right?
    Mr. Kauffman. At one point there was 135 acres that were 
going to be dedicated to parkland that has since slipped off 
the table.
    Chairman Tom Davis. I mean, one of the things that we may 
want to explore with you is what you are going to need to do 
that, and maybe Mr. Moran and I were successful on the Horton 
transfer, so take a look at doing something like that to help 
the county in some other areas. If we can continue to talk.
    Mr. Eastin. I agree.
    Chairman Tom Davis. I recognize your orders come from a 
higher authority, and you are going to be a good soldier and 
implement them.
    Mr. Eastin. Not the highest authority, but the higher.
    Chairman Tom Davis. Well, Mr. Moran and I have to answer to 
everybody. We have to answer to our colleagues, our voters, to 
everybody on this. But we have been successful in the past when 
we put our heads together. Again, he's on a very critical 
Appropriation's subcommittee, a respected member of that. I am 
chairman of the committee that oversees GSA. Between us maybe 
we can continue to make the pie a little bigger to solve this 
and work on the time line. So if we can work toward that, I 
think it gives us some hope.
    Finally, Mr. Kirk, what is it going to take to satisfy your 
citizens at the end of the day? I appreciate you keeping an 
open mind on this, but there has to be a lot of anxiety on this 
out there.
    Mr. Kirk. Certainly there's a lot of anxiety. It's not 
going to be something in the short term. I think it is going to 
have to be worked through during the course of the years. It's 
going to take to identify what the issues are, to identify 
potential solutions to them, whether you follow Dave Albo's 
suggestion, whether you come up with other ideas.
    I think that really we are going to be patient and watch, 
and certainly it would be nice if occasionally we could, I 
guess, stay wired in slightly somehow. We don't have the 
resources, obviously, to influence the county planning or the 
State planning decisions, but we certainly have some ideas or 
on-the-scene recommendations that we can provide up through the 
folks that will spend more time working with you on a regular 
basis.
    Chairman Tom Davis. Well, I intend to keep you involved, 
and I know the other officials in the area wanted to keep you, 
and some of the other officials involved as well. Even if we 
get a consensus on the plan, implementing that plan is 
difficult given the financial constraints and some of the time 
constraints that we have, and I think that is something that 
Mr. Moran and I need to work on.
    Mr. Moran.
    Mr. Moran. Thank you, Mr. Chairman.
    Mr. Chairman, when you were chair of the Fairfax County 
Board, and this proposal were to have come before you, you 
would have rejected it because there wasn't an adequate 
infrastructure to accommodate the development, and would have 
required that infrastructure be completed before the 
development itself was completed. Mr. Hyland and Kauffman, I 
trust, would take exactly the same position today. So it is a 
private development; you would say that infrastructure has to 
be in place before you bring 18,000 people onto the base, or 
including--all inclusive we are talking about almost 20,000 to 
25,000 really, perhaps more than that. So it wouldn't happen. 
It wouldn't be approved.
    Mr. Hyland. It would be proper if it was taking care of 
this.
    Mr. Moran. Mr. Shane, you are an expert, national expert, 
on economic development and transportation planning. If you had 
such a project that was going to see over 20,000 people coming 
into a development, would you take the position that 
infrastructure has to be in place before that development can 
proceed to completion?
    Mr. Shane. In my experience, we have never had so perfect a 
situation in which we could see the infrastructure is going to 
be there before the people who need it begin to arrive. It is 
always imperfect. And what I see here is--forgive me for being 
the cockeyed optimist, I have to be to work in the Federal 
establishment--a huge opportunity. We have a huge challenge 
coming at us. It is a firecracker that is under our seats, and 
it's going to force all of the agencies that have a role here, 
including several of the agencies that comprise the Department 
of Transportation, to really step up to this issue in a much 
more efficient way than we are going to do, or we are going to 
have, as you have seen, gridlock. We can't afford that.
    Mr. Moran. Yeah. So the answer was yes? You would want at 
least the funding to be identified.
    Mr. Shane. Yes.
    Mr. Moran. OK. Now, let's move to Mr. Eastin.
    Mr. Eastin. How did I know you were going to get to me on 
this?
    Mr. Moran. Yeah. Are you going to recommend that at least 
the $626 million be--the source of all of that funding be 
identified before this project can be approved?
    Mr. Eastin. We expect to--as I have indicated before, 
Pierce Homer and I and others are cooperating on this, on 
trying to find it and put a handle on it, on what's necessary 
and what the number, dollar number, is. We're going to go ahead 
with the Fairfax County Parkway. I assume they're going to go 
ahead with the widening of I-95 and Woodlawn Road, and we're 
going to have to identify where the money is coming from to 
finish these.
    Now, all of the money is not very likely going to come from 
the State of Virginia. Not all of the money is going to come 
from the Army or the BRAC account. All the money's not going to 
come from the Office of the Secretary of Defense or some 
outside funding from whatever you and the chairman can help 
with.
    Mr. Moran. If I could, if you do not have agreement on all 
of those funding sources, are you prepared to recommend that 
this project should not go forward until such agreement is 
reached?
    Mr. Eastin. My job under the BRAC law is to bring 18,000 
people one way or another to EPG. I am confident, and as Jeff 
has indicated, this is going to be a challenge. It's a 
challenge I look forward to. I think it can be done, but we're 
going to perceive that they're coming down there, and I think 
we're going to get the infrastructure to do it.
    It would be very unwise to do that if we didn't have the--
didn't have the infrastructure, but our--our duty under the 
BRAC law is to bring them down there. If the infrastructure's 
not complete, we're going to have to take some other measures, 
staggered work and various other things, but I am confident 
that between Pierce and myself and the people on the Hill, we 
recognize we have a problem, between a rock and a hard place, 
if you will, and I am confident that wise people can get 
together and figure out how to do this.
    Mr. Moran. Well, I am confident as well that we all 
recognize this is a problem. I am not confident we all 
recognize that there is a solution to this problem. The Fairfax 
County Parkway has been on the boards for what, 14 years or 
something, and it's still not completed, and at this point, 
given the expansion necessitated by BRAC, we don't have the 
money even identified for completing the Fairfax County 
Parkway.
    Can you assure me that the Army is going to have this done? 
The Fairfax County Parkway is all I am talking about. That's 
the first step, before these people are located at the base by 
2011.
    Mr. Eastin. I can tell you that from what--my talking with 
Secretary Homer, that we will have this thing built long before 
September 15, 2011.
    Mr. Moran. When do you think you'll have the Fairfax County 
Parkway--I really want to get you on the record. When do you 
expect the Fairfax County Parkway to be completed?
    Mr. Eastin. I don't know, but I think it's time for our 
impasse over who's going to build this thing to end, and to use 
the funding that VDOT already has supplemented as it might be 
necessary from wherever, and get the thing built. Our staffs, 
the Pierce staff and mine, are very, shall we say, animated in 
their discussions. It's time to eliminate the animation and get 
on with the business.
    Mr. Moran. I agree. It's one thing to be animated in 
discussion. It's another thing to reach agreement. But you are 
on the record saying this is going to--the Fairfax County 
Parkway is going to be completed at a level adequate to 
accommodate at least the portion of the BRAC expansion that is 
coming into the EPG and Route 1 well in time before 2011.
    Mr. Eastin. I will commit to that on the parkway. My 
commitment does not run to interchanges and other things.
    Mr. Moran. No. I understand that, but you're going to have 
to do these interchanges.
    Now, the $626 million that has been identified is not 
provided for in the budget resolution as it applies to the 
military construction appropriations.
    Mr. Eastin. $407, that's correct. I might add, Congressman, 
$626 is really $475 because the other $150 or so has been 
identified by VDOT.
    Mr. Moran. OK. So we're talking $475 million unidentified.
    Mr. Eastin. That's right.
    Mr. Moran. And the 2007--it obviously is not in 2007. How 
much is going to be in the 2008 request?
    Mr. Eastin. It's going to depend on several things. One, 
our discussions with the State, the Commonwealth on appropriate 
shares of these things. My discussion with the Office of the 
Secretary of Defense, remember, 18,000 of 22,000 are not Army 
people. We are the agent and landlord, but they are from 
elsewhere in the Defense Department. And we will have ongoing 
discussions with your committee on where funds might come from.
    Along with that, we're looking at declaring some of these 
roads, defense access roads, which would then ease the ability 
to fund some of their necessary projects.
    Mr. Moran. Good. Labeling it a defense access road does 
help, but as you know, you have a maximum of 3 months within 
which to get that request into the 2008 fiscal year 
appropriation. It's not in there, it's going to be very 
difficult to get any addition, because that money would have to 
come from veterans' healthcare within the allocation to that 
subcommittee. So within 3 months, you've got to figure out 
where you're going to get that money, and that 2008 money 
doesn't become available until 2009, and at that point you have 
2 years left to accommodate the influx of 18,000, you say the 
20,000-plus people really, onto this base.
    I know you know this, but I am kind of underscoring the 
timeframe within which we have to operate. From my perspective, 
it's impossible, not going to have the infrastructure in place. 
If you didn't have the infrastructure in place, and I ask this 
again, would you not think it appropriate to delay the move of 
these 18,000 people to Fort Belvoir?
    Mr. Eastin. I do not have the option as given by the BRAC 
law to delay their move. We have the perfect storm here, I mean 
quite frankly. To get people in there, we have to put them in 
there by September 15th. If we want them to be there and be 
productive, we have to fix the transportation system, and I am 
confident the State and Defense will do that.
    Mr. Moran. OK. Because your role and that of your--of the 
people that you answer to is to implement the law as passed by 
the legislative branch. So if the Congress was to extend this 
deadline, then that would resolve this issue that this--what I 
would consider to be an insurmountable challenge. And it 
appears that's the situation that we are going to be 
confronting.
    2011 is not a reasonable timeframe. It's not a possible 
timeframe within which to accomplish this infrastructure, and 
we have all agreed that without that infrastructure in place, 
you can't move 18,000-plus people onto this base.
    Another issue related to the fact that the Congress passes 
the laws and the executive branch, as you know, implements 
those laws, is the Army Museum. When I put the money into the 
defense appropriations bill for the Army Museum to kick it off, 
and we accompanied it with language, that language was clearly 
intended to locate it on the base on Route 1. As far as I am 
concerned, there is no authorization nor money to locate it at 
EPG at this point. Do you disagree with that?
    Mr. Eastin. It's my understanding the law was to take the--
put the museum on Belvoir, which, of course, encompasses EPG. 
That's our thinking on this. And once again, as I indicated 
before, this is supposedly or supposed to be a privately 
funded, financed museum, and we're hoping to put the museum in 
a condition where it can be adequately funded in that manner.
    Mr. Moran. I understand that, but, of course, once the Army 
used the money that was appropriated, they then assumed the 
obligation of expending it in the way that was intended by the 
Congress. Now, we'll go back and look, but if there is need for 
clarification, we will simply have to clarify where the museum 
was intended to be located. You will concur with that?
    Mr. Eastin. Yes.
    Mr. Moran. Yeah. The county has suggested that in addition 
to the $626 and you're saying $475 million that is unaccounted 
for, there also needs to be rail extension. Would you not 
agree, and I would ask this of Mr. Shane as well, that there 
should be a rail extension from Springfield Metro to those 
office buildings at EPG?
    Mr. Eastin. That's not as easy an answer as it might at 
first blush appear. The rail line is on the other side of 95 
from EPG, so whatever we're going to do there, we'll have to 
get the people from that new rail station either under or over 
95. Currently we are--the plan is to bring them by shuttles, 
regular shuttle service to EPG and Belvoir proper from 
Franconia-Springfield Metro station which serves--as you know, 
serves both VRE and Metro.
    Given the results of the Washington Post study that someone 
alluded to before that was in yesterday, it's quite surprising 
to see that 9 percent of the people in Fairfax use public 
transportation, and 70-some percent drive. So if we assume 
that, and our traffic planners are looking for 10 to 15 percent 
possibly coming in the Franconia-Springfield station, 10 to 15 
percent of our 22,000, this is not a panacea for all these 
problems.
    We're looking at it however you look at it, 2,500 or 3,000 
per day or so, so that the tendency is to think of this as a 
Lexington Avenue line in New York, and people ride up and down 
it all day long. That's not how northern Virginia, in fact, the 
National Capital region, commutes. We'd love to have that 
ability, but right now, as you can see from our project list, 
extension of the Metro line down there would be another third 
of a billion dollars, and given our funding already, not to say 
it wouldn't have some marginal value, but that's not in our 
current thinking.
    Mr. Moran. Is having at least some light rail down to Fort 
Belvoir in your long-term planning?
    Mr. Eastin. Not right now. No, sir.
    Mr. Moran. It isn't. At one point it was.
    Do you think that it would be appropriate to put in your 
long-term planning widening of Route 1?
    Mr. Eastin. Right now our traffic studies, I believe the 
figure--correct me, Jim, if I'm wrong--show a capacity of about 
6,000 more cars there per day on Route 1.
    Mr. Moran. Route 1 during rush hour?
    Mr. Eastin. I avoid it.
    Mr. Moran. I can understand why; 6,000. Maybe driving down 
the breakdown lane or something like that.
    Mr. Eastin. We're already putting a little north of 4,000 
new people down there already. And I think that's going to 
pretty much be the capacity of Route 1. That said, it may not 
be a pleasant place to drive at rush hour. It is not as broke 
as, say, some of the other roads are there, and this is not in 
our current plan, given the way the 22,000 people would be.
    Mr. Moran. Well, I think that's a terrible mistake. That's 
so short-sighted. I won't pursue this. I think we know what the 
situation we confront with transportation is.
    I have one other question, though, and that is the 
construction of these office buildings, which we haven't 
mentioned. The Secretary of the Army called when the BRAC--
original BRAC recommendation came forward, must have been a 
couple--3 years ago now or something, said that we're planning 
on spending about $2 billion for this construction on the site. 
This is irregardless of the infrastructure. This is for the 
construction of all these new buildings. Well, now it's been 
estimated that was a real low-ball figure. We're probably 
talking about as much as twice that. How much is going to be 
requested, do you know, for the actual construction of the 
buildings and the military construction appropriations bill?
    Mr. Eastin. I do not know that. The request from the Army 
proper will be pretty much on target. The National Geospatial 
Intelligence Agency is bringing their own funding to this. I 
don't know what their arrangements are. And WHS is also. The 
final business plan on WHS is not in, so I'm not exactly sure 
where that's going to come out.
    Mr. Moran. One last question. When are you going to 
complete the public hearings, the EIS process?
    Mr. Eastin. The EIS process on our current target, the 
draft EIS, the draft final will come out--excuse me, the draft 
EIS will come out late December; holidays involved, probably 
the first part of January. There will be public hearings and a 
public comment period after that before that EIS is issued 
sometime late spring.
    Mr. Moran. Late spring. So we're talking about maybe May, 
June.
    Mr. Eastin. The hearing will be shortly after the----
    Mr. Moran. February, March. Then you have to go back to the 
drawing boards and presumably take seriously the public 
comment. So you are looking at May, June at a minimum before 
you complete your recommendations.
    Mr. Eastin. That's right. And the record of decision 
currently is early July.
    Mr. Moran. Early July. So that's barely in time for the 
2009 fiscal appropriations request, which becomes available in 
2010, and you're going to have 20,000 people, you're suggesting 
18,000. You're suggesting these people are going to come a year 
later when, at best, you will get your appropriations in 2010 
for the 2011 infusion of these 20,000.
    Mr. Eastin. The appropriations are included in our 
programming process already for these outyears, and yes, your 
point is well taken. We're going to dovetail these together 
very carefully, and we're going to have to keep----
    Mr. Moran. Mr. Eastin, you are a good soldier and an 
unreasonable one. This isn't going to happen in the timeframe. 
It shouldn't because we have no business bringing 20,000 people 
to a constricted site before we have the infrastructure in 
place.
    Chairman Tom Davis. And we're going to help make----
    Mr. Moran. Clearly from this hearing, Mr. Chairman, I think 
we've come to this conclusion. We have some work to do in terms 
of clarifying the intent of Congress and apparently adjusting 
some of these deadlines to a more reasonable timeframe. But 
again, Mr. Chairman, thanks for having this hearing. It's been 
very informative.
    Chairman Tom Davis. OK. I just have three quick questions, 
Mr. Eastin. You talked about trying to stop the disagreement 
between Virginia and the Army to getting the parkway built. I 
put an amendment on the House side and Senator Warner on the 
Senate side that would allow the Army to give you the authority 
to manage the project. Are you willing to take that over right 
now or at least to manage it and get it constructed?
    Mr. Eastin. I think what is important for people to realize 
is that the Army does not build roads. I don't think VDOT 
builds roads. Corps of Engineers doesn't build roads. Highway 
Administration doesn't build roads. We contract to build roads.
    I think it's incumbent on us to figure out which is the 
best contracting vehicle to get these roads built, whether it 
be the Army, whether it be VDOT, but as I said earlier, I think 
to end the bickering and to get this done one way or another, 
we all have smart lawyers who can work through this thing and 
go from there.
    Chairman Tom Davis. We've had smart lawyers for years, and 
I think that's what's frozen it, unfortunately.
    Mr. Moran. Mr. Chairman, you are seen by some as a smart 
lawyer, too.
    Chairman Tom Davis. I'm a recovering lawyer, Jim.
    Ms. Watts. Mr. Chairman.
    Mr. Moran. Let me just ask, do you feel you could do this 
without the authorization that Mr. Davis is referring to? 
Because the defense authorization bill isn't going to get done 
this year.
    Mr. Eastin. I believe we can get this done; however, some 
of this is a matter of interpretation between Secretary Homer's 
staff and my staff.
    Ms. Watts. Mr. Chairman, may I just add the critical 
element of the memorandum of understanding: It's not who 
oversees the private sector building it, it's who is going to 
pay for the change orders if there's ordnance and explosives 
that delay the project, or change it as it's being carried out, 
and that becomes the concern under the laws of the Commonwealth 
and under the cost to the project.
    Chairman Tom Davis. But it's got to be the Army. I mean, 
they put the ordnance there. At the end of the day, they are 
the ones who would have to bear that cost there. Fairfax County 
didn't put the ordnance underground there. I think that's a 
couple of the questions.
    Mr. Albo. Mr. Chairman, could I ask a question real quick? 
The other problem is Virginia Code section 1-405, which 
states----
    Chairman Tom Davis. David is a lawyer.
    Mr. Albo [continuing]. No land containing environmental 
contamination shall be transferred to the Commonwealth unless 
all corrective action necessary to protect human health, etc., 
has been undertaken.
    So the problem is a legal one in that Virginia can't, by 
code, accept a title to the land, so they can't even start 
building. That's the legal loophole.
    Chairman Tom Davis. That's why we put it in, Army to manage 
it. They don't build it, but to construct it.
    Mr. Albo. And the purpose of my bill is if I can get it 
passed on September 27th--I don't think it will be a problem, 
it shouldn't be controversial--will be at least then to allow 
the Virginia VDOT to take title to the land and get started.
    Mr. Moran. Mr. Chair, I hate to interject here, but just so 
I fully understand, would this not enable the State to get past 
this environmental mitigation issue? In other words, the Army 
took it, contracted it out; it could be done by a private firm 
with all--without a lot of the constraints that the government 
requires in terms of the environment, but then turn it over to 
the State after they could assure the State that all the 
environmental problems were fixed. That's what you're--just so 
I can understand in laymen's language, that's what you think 
might be accomplished by doing that, by letting the Army 
contract out, get it done and then give it to the State.
    Chairman Tom Davis. But you've got to start construction. 
In the meantime you have to settle this first. It never gets 
constructed. That's where it's sat for years, unfortunately. 
And the other problem, of course, is the road may need to be 
redesigned, given the new needs in that area. And so let's get 
it built right and make sure it is designed right, one of the 
points the Governor made.
    Just a couple other questions, Mr. Eastin. The Governor 
asked you if you could to incorporate the impact studies in the 
mitigation efforts into the environment documents underway at 
Belvoir and Quantico. Are you willing to do that?
    Mr. Eastin. Absolutely.
    Chairman Tom Davis. OK. And finally, would you consider the 
Fairfax County Public Schools' request to be a cooperating 
agency in the environmental process? This is something that Mr. 
Tistadt----
    Mr. Eastin. I don't have a problem in that end. All the 
input we can get on some of these things is absolutely 
necessary.
    Chairman Tom Davis. Thank you very much.
    Any other questions?
    Let me just thank this panel. I want to thank our audience 
for staying with us. There is a lot of interest in this 
community, a lot of concern about this community, and both Mr. 
Moran and I recognize that at the congressional level, given 
our committee status, we have a lot of work to do to make sure 
that we have a timeline that's reasonable and funding levels 
that are reasonable.
    We look forward to cooperating, Mr. Eastin, with you and 
the Army, with the State government, the Governor, our 
legislators, with the County Board of Supervisors, and with our 
civic partners as well, and, again, the school system.
    Thank you very much. The hearing's adjourned.
    [Whereupon, at 12:37 p.m., the committee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T9934.043

[GRAPHIC] [TIFF OMITTED] T9934.044

[GRAPHIC] [TIFF OMITTED] T9934.045

                                 <all>

</pre></body></html>
